<html>
<title> - HEARING TO CONSIDER THE SOCIETAL BENEFITS OF BIOTECHNOLOGY</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]








       HEARING TO CONSIDER THE SOCIETAL BENEFITS OF BIOTECHNOLOGY

=======================================================================

                                HEARING

                               BEFORE THE

  SUBCOMMITTEE ON HORTICULTURE, RESEARCH, BIOTECHNOLOGY, AND FOREIGN 
                              AGRICULTURE

                                 OF THE

                        COMMITTEE ON AGRICULTURE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              JULY 9, 2014

                               __________

                           Serial No. 113-16




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





          Printed for the use of the Committee on Agriculture
                         agriculture.house.gov






                                    ______

                         U.S. GOVERNMENT PRINTING OFFICE 

88-678 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001


















                        COMMITTEE ON AGRICULTURE

                   FRANK D. LUCAS, Oklahoma, Chairman

BOB GOODLATTE, Virginia,             COLLIN C. PETERSON, Minnesota, 
    Vice Chairman                    Ranking Minority Member
STEVE KING, Iowa                     MIKE McINTYRE, North Carolina
RANDY NEUGEBAUER, Texas              DAVID SCOTT, Georgia
MIKE ROGERS, Alabama                 JIM COSTA, California
K. MICHAEL CONAWAY, Texas            TIMOTHY J. WALZ, Minnesota
GLENN THOMPSON, Pennsylvania         KURT SCHRADER, Oregon
BOB GIBBS, Ohio                      MARCIA L. FUDGE, Ohio
AUSTIN SCOTT, Georgia                JAMES P. McGOVERN, Massachusetts
SCOTT R. TIPTON, Colorado            SUZAN K. DelBENE, Washington
ERIC A. ``RICK'' CRAWFORD, Arkansas  GLORIA NEGRETE McLEOD, California
SCOTT DesJARLAIS, Tennessee          FILEMON VELA, Texas
CHRISTOPHER P. GIBSON, New York      MICHELLE LUJAN GRISHAM, New Mexico
VICKY HARTZLER, Missouri             ANN M. KUSTER, New Hampshire
REID J. RIBBLE, Wisconsin            RICHARD M. NOLAN, Minnesota
KRISTI L. NOEM, South Dakota         PETE P. GALLEGO, Texas
DAN BENISHEK, Michigan               WILLIAM L. ENYART, Illinois
JEFF DENHAM, California              JUAN VARGAS, California
STEPHEN LEE FINCHER, Tennessee       CHERI BUSTOS, Illinois
DOUG LaMALFA, California             SEAN PATRICK MALONEY, New York
RICHARD HUDSON, North Carolina       JOE COURTNEY, Connecticut
RODNEY DAVIS, Illinois               JOHN GARAMENDI, California
CHRIS COLLINS, New York
TED S. YOHO, Florida
VANCE M. McALLISTER, Louisiana

                                 ______

                      Nicole Scott, Staff Director

                     Kevin J. Kramp, Chief Counsel

                 Tamara Hinton, Communications Director

                Robert L. Larew, Minority Staff Director

                                 ______

  Subcommittee on Horticulture, Research, Biotechnology, and Foreign 
                              Agriculture

                    AUSTIN SCOTT, Georgia, Chairman

VICKY HARTZLER, Missouri             KURT SCHRADER, Oregon, Ranking 
JEFF DENHAM, California              Minority Member
STEPHEN LEE FINCHER, Tennessee       SUZAN K. DelBENE, Washington
DOUG LaMALFA, California             JIM COSTA, California
RODNEY DAVIS, Illinois               MARCIA L. FUDGE, Ohio
CHRIS COLLINS, New York              ANN M. KUSTER, New Hampshire
TED S. YOHO, Florida                 JUAN VARGAS, California
                                     SEAN PATRICK MALONEY, New York

                                  (ii)



















                             C O N T E N T S

                              ----------                              
                                                                   Page
Davis, Hon. Rodney, a Representative in Congress from Illinois, 
  opening statement..............................................     1
Schrader, Hon. Kurt, a Representative in Congress from Oregon, 
  opening statement..............................................     4
Scott, Hon. Austin, a Representative in Congress from Georgia, 
  prepared statement.............................................     3
    Submitted material...........................................    51
    Submitted statement on behalf of Alvin Jones, Principal, 
      Jones Laffin Company, Inc..................................    72

                               Witnesses

Just, Ph.D., David R., Professor, Co-Director, Cornell Center for 
  Behavioral Economics in Child Nutrition Programs, Charles H. 
  Dyson School of Applied Economics and Management, Cornell 
  University, Ithaca, NY.........................................     6
    Prepared statement...........................................     7
Juma, Ph.D., Calestous, Professor, Practice of International 
  Development, and Director, Science, Technology, and 
  Globalization Project, John F. Kennedy School of Government, 
  Belfer Center for Science and International Affairs, Harvard 
  University, Cambridge, MA......................................     9
    Prepared statement...........................................    11
Bolden-Tiller, Ph.D., Olga, Associate Professor, Tuskegee 
  University, Tuskegee, AL.......................................    25
    Prepared statement...........................................    27
Lidback, Joanna S., Owner, The Farm at Wheeler Mountain, 
  Westmore, VT; on behalf of Agri-Mark, Inc.; National Council of 
  Farmer Cooperatives............................................    28
    Prepared statement...........................................    29

 
       HEARING TO CONSIDER THE SOCIETAL BENEFITS OF BIOTECHNOLOGY

                              ----------                              


                        WEDNESDAY, JULY 9, 2014

                  House of Representatives,
Subcommittee on Horticulture, Research, Biotechnology, and 
                                       Foreign Agriculture,
                                  Committee on Agriculture,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to call, at 10:10 a.m., in 
Room 1300, Longworth House Office Building, Hon. Rodney Davis 
presiding.
    Members present: Representatives Scott, Davis, LaMalfa, 
Yoho, Schrader, DelBene, and Kuster.
    Staff present: DaNita Murray, John Goldberg, Mary Nowak, 
Nicole Scott, Skylar Sowder, Tamara Hinton, John Konya, Keith 
Jones, Liz Friedlander, and Riley Pagett.

  OPENING STATEMENT OF HON. RODNEY DAVIS, A REPRESENTATIVE IN 
                     CONGRESS FROM ILLINOIS

    Mr. Davis. This hearing of the Subcommittee on 
Horticulture, Research, Biotechnology, and Foreign Agriculture 
to consider the societal benefits of biotechnology, will come 
to order.
    I would like to first welcome everyone, good morning, and I 
am going to give an opening statement on behalf of Chairman 
Scott who has lost his voice. Being from Georgia, I always 
thought we needed a translator anyway, so I didn't know what 
the problem was, but Austin has lost his voice, and therefore, 
has relinquished the gavel to me today, so on behalf of him, I 
apologize.
    I am pleased to offer the opening statement on behalf of 
Chairman Scott. Thank you all for being here today to discuss 
an issue that has become increasingly important over the last 2 
decades. The purpose of today's hearing of the Subcommittee on 
Horticulture, Research, Biotechnology, and Foreign Agriculture 
is to consider the many benefits we as a society have realized 
through technological advances.
    In the field of agriculture, we cope with the challenge of 
feeding an ever expanding world population while maintaining 
the safety, quality, diversity, and affordability in our food 
supply that we as Americans have come to expect. Biotechnology 
has played a critical role in meeting a number of consumer and 
societal needs. From the earliest experiments with agriculture 
to present time, we have been growing, cross-breeding, and 
fundamentally altering the crops and livestock we raise in 
order to meet the societal needs. As our needs have evolved, so 
has the use of technology. With each step in our technological 
development, we are able to produce more with less while 
simultaneously continuing to improve the safety, quality, 
diversity, and affordability of the food that we consume.
    Biotechnology is the application of biological science that 
makes use of living organisms to provide new products for 
agricultural, industrial, and medical uses. Consumers have long 
benefitted from biotechnology. For example, biotech includes 
the use of microorganisms in bread making, or the production of 
drug products such as insulin. As our capabilities have 
expanded, our potential for developing products that enhance 
benefits to consumers and producers has grown.
    Unfortunately, a combination of factors has intervened to 
challenge consumer acceptance of biological technologies and 
potentially threaten further enhancements in this field. 
Secretary of State John Kerry recently stated, ``The challenge 
is that by 2050, the world's population is going to grow to 9 
billion people. That is going to demand at least a 60 percent 
increase over our current agricultural production.'' He went on 
to say: ``It is simply true that biotechnology has dramatically 
increased crop yields. It has dramatically decreased loss due 
to pests and disease, and it allows us to feed more people 
without converting tropical forests or fragile lands in order 
to do so. So we save money and we save the environment and we 
save lives. It is a virtuous circle.''
    It is particularly troubling that a small minority has so 
confused the vocabulary of biotechnology as to threaten the 
development of this science and its role in feeding and 
nourishing our people, fighting disease, resolving the conflict 
between production agriculture and conservation, and doing all 
these things with fewer farmers on less land.
    Today, we will hear from witnesses who will further outline 
how society has benefitted from these scientific achievements 
and the challenges that biotechnology faces in the future. We 
will hear about many specific advances, but I would like to 
highlight just a couple here.
    One great example of the consumer benefit to biotechnology 
is with the dietary Vitamin A. It is estimated that Vitamin A 
deficiency kills 670,000 children under the age of 5 each year. 
With the genetically engineered Golden Rice, which contains 
beta-carotene, a precursor of Vitamin A, we can significantly 
reduce the amount of Vitamin A deficiency and deficient-related 
deaths in children around the world.
    Another example is with Celiac Disorder. This disorder 
affects 1 in every 133 individuals with symptoms ranging from 
deterioration of the small intestines lining to osteoporosis. 
With advances in biotech wheat, both adolescents and adults can 
live a more fulfilling life with this genetically predisposed 
autoimmune disorder. Additionally, \3/4\ of all Americans are 
deficient in Vitamin D. Large deficiencies of Vitamin D have 
been linked to cancer, heart disease, diabetes, soft bones in 
children, and osteoporosis. Many Americans receive Vitamin D 
from orange juice, yet the disease of citrus greening threatens 
to leave a large portion of the orange industry unusable. 
Without this vital industry, the number of Americans at risk of 
a Vitamin D deficiency will rise indefinitely.
    New biotechnology can help the citrus industry fight the 
greening disease and potentially increase the amount of Vitamin 
D in each glass of orange juice. Utilization of these 
biotechnologies improves our environment as the crops we are 
developing require a smaller carbon footprint by reducing the 
acres, water, and other resources needed to grow them. 
Biotechnology provides numerous benefits to not only the 
American consumer but also to consumers worldwide. With the use 
of this technology, we can fight diseases, increase available 
food sources, and reduce overall environmental impact.
    In addition to the witnesses before us today, we have 
received submitted testimony and extraneous material that is 
relevant to today's hearing, and without objection, these 
materials will be included in the record.
    [The documents referred to are located at p. 51.]
    Mr. Davis. Before us today is a panel of five witnesses 
that will speak to these benefits. We are joined by Dr. David 
Just, Professor of Applied Economics and Management at Cornell 
University; Dr. Olga Bolden-Tiller, Associate Professor at 
Tuskegee University; Dr. Calestous Juma, Professor of the 
Practice of International Development at Harvard University; 
and Ms. Joanna Lidback, Owner and Operator of The Farm at 
Wheeler Mountain, a small family dairy operation.
    We appreciate the time each of you have given to prepare 
for this hearing. Your testimony will be important to show the 
effect new agricultural technology has on the consumer. Thank 
you.
    [The prepared statement of Mr. Scott follows:]

 Prepared Statement of Hon. Austin Scott, a Representative in Congress 
                              from Georgia
    Good morning.
    Thank you all for being here today to discuss an issue that has 
become increasingly important over the last 2 decades.
    The purpose of today's hearing of the Subcommittee on Horticulture, 
Research, Biotechnology, and Foreign Agriculture is to consider the 
many benefits we as a society have realized through technological 
achievements.
    In the field of agriculture, we cope with the challenge of feeding 
an ever expanding world population while maintaining the safety, 
quality, diversity and affordability in our food supply that we have 
come to expect. Biotechnology has played a critical role in meeting a 
number of consumer and societal needs. From the earliest experiments 
with agriculture to present time, we have been growing, cross-breeding, 
and fundamentally altering the crops and livestock we raise in order to 
meet the societal needs. As our needs have evolved, so has the use of 
technology. With each step in our technological development, we are 
able to produce more with less, while simultaneously continuing to 
improve the safety, quality, diversity and affordability of the food we 
consume.
    Biotechnology is the application of biological science that makes 
use of living organisms to provide new products for agricultural, 
industrial, or medical uses. Consumers have long benefited from 
biotechnology. For example, biotechnology includes the use of 
microorganisms in bread making or production of drug products such as 
insulin.
    As our capabilities have expanded, our potential for developing 
products that enhance benefits to consumers and producers has grown. 
Unfortunately, a combination of factors has intervened to challenge 
consumer acceptance of biological technologies and potentially threaten 
further enhancements in this field.
    Secretary Kerry recently stated ``the challenge is that by 2050, 
the world's population is going to grow to 9 billion people. That is 
going to demand at least a 60 percent increase over our current 
agricultural production.''
    He went on to say: ``It is simply true that biotechnology has 
dramatically increased crop yields. It has dramatically decreased loss 
due to pests and disease, and it allows us to feed more people without 
converting tropical forests or fragile lands in order to do so. So we 
save money and we save the environment and we save lives. It is a 
virtuous circle.''
    It is particularly troubling that a small minority has so confused 
the vocabulary of biotechnology as to threaten the development of this 
science and its role in feeding and nourishing our people; fighting 
disease; resolving the conflict between production agriculture and 
conservation; and doing all these things with fewer farmers on less 
land.
    Today we will hear from witnesses who will further outline how 
society has benefitted from these scientific achievements and the 
challenges biotechnology faces in its future.
    We will hear about many specific advances but I would like to 
highlight just a couple here. One great example of the consumer benefit 
to biotechnology is with the dietary Vitamin A. It is estimated that 
Vitamin A deficiency kills 670,000 children under the age of 5 each 
year. With the genetically engineered Golden Rice, which contains beta-
carotene, a precursor of Vitamin A, we can significantly reduce the 
amount of Vitamin A deficient related deaths in children around the 
world.
    Another example is with Celiac Disorder. This disorder affects 1 in 
133 individuals, with symptoms ranging from deterioration of the small 
intestines' lining to osteoporosis. With advances in biotech wheat, 
both adolescents and adults can live a more fulfilling life with this 
genetically predisposed autoimmune disorder.
    Additionally, \3/4\ of all Americans are deficient in Vitamin D. 
Large deficiencies of Vitamin D have been linked to cancer, heart 
disease, diabetes, soft bones in children, and osteoporosis. Many 
Americans receive Vitamin D from orange juice. Yet, the disease of 
citrus greening threatens to leave a large portion of the orange 
industry unusable. Without this vital industry, the number of Americans 
at risk of a Vitamin D deficiency will rise, indefinitely. New 
biotechnology can help the citrus industry fight the greening disease 
and potentially increase the amount of Vitamin D in each glass of 
orange juice.
    Utilization of these biological technologies improves our 
environment, as the crops we are developing require a smaller carbon 
footprint by reducing the acres, water, and other resources needed to 
grow.
    Biotechnology provides numerous benefits to not only the American 
consumer but also to consumers worldwide. With the use of this 
technology, we can fight diseases, increase available food sources, and 
reduce overall environmental impact.
    In addition to the witnesses before us today, we have received 
submitted testimony and extraneous material that is relevant to today's 
hearing. Without objection these materials will be included in the 
record.
    Before us today is a panel of five witnesses that will speak to 
these benefits. We are joined by Dr. David Just, Professor of Applied 
Economics and Management at Cornell University; Dr. Olga Bolden-Tiller, 
Assistant Professor at Tuskegee University; Dr. Calestous Juma, 
Professor of the Practice of International Development at Harvard 
University; and Ms. Joanna Lidback, Owner and Operator of The Farm at 
Wheeler Mountain, a small, family dairy operation.
    We appreciate the time each of you have given to prepare for this 
hearing. Your testimony will be important to show the effect new 
agricultural technology has on the consumer. Thank you. I would like to 
recognize my colleague from Oregon, Ranking Member Schrader, for any 
opening remarks he may have.

    Mr. Davis. I would like to recognize now my colleague from 
Oregon, Ranking Member Schrader for any opening remarks that he 
may have.

 OPENING STATEMENT OF HON. KURT SCHRADER, A REPRESENTATIVE IN 
                      CONGRESS FROM OREGON

    Mr. Schrader. Thank you very much, Mr. Chairman. Frankly, I 
think you covered it pretty darn well.
    I really appreciate the opportunity to have this hearing 
because I think it is time to put some good information out 
there. There has been an attempt to demonize hybrid and genetic 
engineering without fully understanding the benefits that we 
have had for thousands of years, and more recently, with the 
condensed timeframe, with the biotechnology advances we have, 
to be able to do some of the things in a shorter timeframe, 
which some would say is a bad thing or implies is a bad thing.
    I am on organic farmer myself, I practiced organic farming 
for 20 some years, and you can grow things organically. There 
is no need to get into a whole other labeling conflict or 
concern about something that for all accounts has been deemed 
just as safe as any other hybrid technology we have used, 
again, over the last century or 2.
    So, this is an opportunity for us to clear the air a little 
bit, no pun intended. I find it somewhat ironic that those very 
people that seem to be most concerned about climate change seem 
to be against one of the major tools we can use to actually 
combat some of the deleterious effects of current farming 
practices. There is less tillage needed with some of the 
biotechnology crops we have going on here. There is pesticide 
resistance that we can inculcate here. There are opportunities 
to increase the nutritional value of these crops that you 
alluded to, Mr. Chairman. These are all good things that those 
very same people would be lauding in any other situation.
    And to be honest, some of the panel will talk about this 
today, what we have here is a failure to communicate. We have a 
situation where a lot of folks from the social aspect of things 
have not caught up, once again, with the technological advances 
we have made. We see this in telecommunications all the time 
where we are way behind the curve trying to figure out how to 
regulate or not regulate the Internet and make sure that 
communication is done in a way where we are not using Ma Bell 
type of technologies to deal with modern advances. I think we 
are seeing the same thing here. You know, there is nothing 
that--and I am a scientist--that I have seen, that would 
implicate food altered in laboratory or altered in the field 
done with the testing we have with FDA, USDA is unhealthy or 
unsafe.
    And I am very, very worried. Here is my biggest worry, Mr. 
Chairman. I would be interested in what the panel says. My 
biggest worry is that under the guise of trying to inform the 
consumer, we actually misinform the consumer, we imply there is 
some problem where there is not a problem. Now, if we had a 
better education system and consumers were more savvy, but we 
run the risk at one point of making, frankly, labeling almost 
irrelevant and a moot point, and that would be a shame because 
people do need to be informed about health hazards, 
environmental hazards that are--that they really would be 
worried about that could affect themselves or their children.
    So, anyway, I look forward to the hearing. I think it is 
going to be a good one and hopefully help clear the air a 
little bit.
    Thank you very much, Mr. Chairman.
    Mr. Davis. Thank you, Ranking Member Schrader.
    Obviously we have already introduced the witness panel. I 
would like to go ahead and begin with your testimony, and we 
will start with Dr. Just. Please begin when you are ready.

         STATEMENT OF DAVID R. JUST, Ph.D., PROFESSOR,
           CO-DIRECTOR, CORNELL CENTER FOR BEHAVIORAL
ECONOMICS IN CHILD NUTRITION PROGRAMS, CHARLES H. DYSON SCHOOL 
                    OF APPLIED ECONOMICS AND
           MANAGEMENT, CORNELL UNIVERSITY, ITHACA, NY

    Dr. Just. Thank you.
    And I thank the Subcommittee for the invitation to testify 
regarding consumer perceptions and benefits of biotechnology. I 
commend you for giving the attention to this important topic.
    I am David Just, a Professor of Applied Economics and 
Management at Cornell University. For the past 16 years, I have 
conducted research in the field of agricultural and food 
economics. I published dozens of studies examining how 
consumers respond to the presentation of food, including 
several studies that directly examine issues regarding 
genetically modified organisms or GMOs, both the attitudes of 
consumers and also those of farmers responding to GMOs.
    There is a large and growing number of consumers that now 
stigmatize GMOs in the U.S. Consumers tend to lump foods that 
are labeled as having been genetically engineered together with 
foods that are highly processed, infused with chemical 
preservatives, and in fact, reproduced foods. Consumers 
associate GMOs primarily with some unquantifiable health risk 
similar to that posed by untested or poorly tested medicines or 
drugs.
    Consumers consider GMOs as a single technology with a 
single set of characteristics rather than the thousands of 
differentiated modifications that now appear in the market. 
This misperception allows the consumers to regard the GMOs in 
caricature, each equally risky and none possessing any 
particular benefits to them.
    Generally, when consumers consider GMOs, they tend to 
regard them in comparison to some hypothetical alternative food 
that is pristine and presents no perceived health risk. In 
reality, the alternatives generally present a greater health 
risk and something that is quantifiable. More often, GMOs have 
been introduced specifically to eliminate the use of pesticides 
or other chemical preservatives or other treatments that do 
present a health risk.
    This is the case, for example, with Bt corn, a product that 
consumers are most likely to encounter in the marketplace 
today. The industry is partly if not wholly to blame for the 
consumer misperception. Industry is focused understandably on 
marketing the benefits to farmers to get them to adopt. 
Consumers often have only a latent understanding of why genetic 
modifications are introduced into the food supply in the first 
place. Because consumers are not actively considering why these 
modifications have been introduced, they tend to ignore the 
health, nutrition, or other benefits that they have to offer.
    When given the choice between conventional foods and GMOs, 
consumers express a strong preference for conventional foods; 
however, when the same choice is presented in a way that the 
consumers can understand the reasons for the genetic 
modification, they overwhelmingly choose the GMOs.
    Thus, consumers would rather buy poultry that has been 
genetically modified to resist diseases than buying chicken, 
for example, that has been fed antibiotics in order to 
accomplish the same purpose. In fact, almost 85 percent prefer 
genetic modification in this case.
    Supporting studies find that consumers are enthusiastic 
about GMOs that have been introduced in order to enhance 
nutrition, safety, or health, but a little more skeptical of 
those introduced primarily to address agricultural 
productivity. When consumers are presented with direct 
explanations of the direct benefits to consumers, they are much 
more willing to accept the technology. Consumers have also 
failed to grasp the benefits to society as a whole. GMOs have 
been instrumental in increasing agricultural productivity. This 
technology has reduced the price of commodities by between four 
and ten percent. Given our era of historically high crop 
prices, this technology is essential to providing low cost 
food, particularly to developing countries.
    In developing countries, GMOs hold the promise to overcome 
generations of relatively low yields and high levels of 
disease. For example, genetically modified corn in Africa has 
been used to reduce the incidents of esophogeal cancer and 
birth defects. These developing countries have paid a very high 
price for consumer rejection of biotechnology in the European 
Union. These poor nations will face a further dwindling of 
fortunes if we fail to convince U.S. consumers of the benefits.
    Unfortunately, consumers often look on developing country 
adoption of GMOs as evidence of large U.S. corporations 
exploiting the poor. These corporations, despite wonderful 
cooperative efforts in developing countries, have failed to use 
their own good will efforts to connect with concerned 
constituencies in the U.S. and also Europe.
    If we are to turn the tide of irrational consumer fears 
regarding biotechnology, these firms must make a concerted 
effort to communicate the direct health benefits to consumers 
from reduced use of chemicals in food production and the 
indirect benefits to developing country consumers of more 
abundant and lower cost food. It is easy to stigmatize genetic 
modification as a benefit only to large agribusinesses. It is 
much more difficult to stigmatize a variety of corn, for 
example, that is reducing the incidents of blindness in sub-
Saharan Africa.
    Again, I would like to thank the Subcommittee for inviting 
me to testify, and I will be happy to answer any questions you 
may have.
    [The prepared statement of Dr. Just follows:]

  Prepared Statement of David R. Just, Ph.D., Professor, Co-Director,
 Cornell Center for Behavioral Economics in Child Nutrition Programs, 
 Charles H. Dyson School of Applied Economics and Management, Cornell 
                         University, Ithaca, NY
    I thank the Subcommittee for the invitation to testify regarding 
consumer perceptions and benefits of biotechnology, and commend you for 
giving your attention to this topic. I am David Just, Professor of 
Applied Economics and Management the Charles H. Dyson School of Applied 
Economics and Management at Cornell University and Co-Director of the 
Cornell Center for Behavioral Economics in Child Nutrition. For the 
past 16 years I have conducted research in the field of agricultural 
and food economics. I have published dozens of studies examining how 
consumers respond to the presentation of food including health claims. 
My work consists of direct studies of consumer responses to various 
food choices and the impact of food and agricultural policy on 
production and trade practices. I have conducted dozens of field 
experiments examining consumer choice and response to product 
descriptions. I have published a half dozen studies directly examining 
issues related to genetically modified organisms (GMOs), looking at 
both consumer attitudes toward GMOs and farmer responses to GMOs.
    In general, we find a large and growing number of consumers who 
stigmatize GMOs. This stigma has long been a factor in Europe, and we 
see the same pattern emerging in the U.S. In consumer studies, we find 
that people tend to lump food that is labeled as having been 
genetically engineered together with categories of foods such as those 
that contain chemical preservatives or other ingredients with long 
names that sound overly technical, or foods that are highly processed 
and factory produced.\1\ For example, one prominent study finds that 
consumers are generally willing to pay about 14% less for GMOs than 
similar products that are not GMOs.\2\ Consumers tend to associate GMOs 
primarily with some unquantifiable health risk, similar to that posed 
by untested or poorly tested drugs or medication, though they also 
express some more minor concerns about environmental impacts. Moreover, 
consumers tend to consider GMOs as a monolithic technology with a 
single set of characteristics, rather than the thousands of 
differentiated modifications that now appear in the market. This 
misperception allows consumers to perceive GMOs in caricature, with 
each being equally risky and none possessing any particular benefits. 
Generally, when consumers consider GMOs, they tend to regard them in 
comparison to some hypothetical alternative food that is pristine and 
presents no perceived health risk. In essence, they consider it a 
question of GMO versus an ideal food.\3\ In reality, the non-GMO 
alternative generally presents a greater and quantifiable health risk. 
GMOs are often introduced specifically to eliminate the use of 
pesticides or other chemical treatments that can present a health risk. 
This is the case with Bt corn, one of the products consumers are most 
likely to encounter.
---------------------------------------------------------------------------
    \1\ Wansink, B.A. Tal and A. Brumberg. ``Ingredient Based Food 
Fears and Avoidance: Antecedents and Antidotes.'' Food Quality and 
Preference 38(2014):40-48.
    \2\ Huffman, W.E., J.F. Shogren, M. Rousu and A. Tegene. ``Consumer 
Willingness to Pay for Genetically Modified Food Labels in a Market 
with Diverse Information: Evidence from Experimental Auctions.'' 
Journal of Agricultural and Resource Economics 28(2003): 481-502.
    \3\ Heiman, A., D.R. Just and D. Zilberman. ``The Role of 
Socioeconomic Factors and Lifestyle Variables in Attitudes and the 
Demand for Genetically Modified Foods.'' Journal of Agribusiness 
18(2000): 249-260.
---------------------------------------------------------------------------
    Consumers have developed misperceptions regarding the benefits of 
biotechnology in part because the industry does not explain those 
benefits to them. Industry has focused understandably on marketing the 
benefits of growing these crops to farmers, leaving consumers with a 
latent understanding of why genetic modifications are introduced into 
the food supply to begin with. Because consumers do not actively 
consider why these modifications have been introduced, they tend to 
ignore the health, cost, nutrition or other benefits of these foods. 
When given the choice between conventional foods and GMOs, consumers 
express a strong preference for conventional foods.\4\ However, my 
research has shown that when the same choice is presented in such a way 
that consumers can understand the reasons for genetic modification, 
they overwhelmingly choose GMOs. For example, consumers would rather 
buy poultry that has been genetically modified to resist diseases than 
chicken that has been fed antibiotics to accomplish the same purpose. 
In fact, almost 85% prefer genetic modification in this case. This 
preference is even stronger for those with a college education, in 
which case more than 90% would select the genetic modification.\5\ 
Supporting studies by other researchers find that consumers are 
enthusiastic about GMOs that have been introduced in order to enhance 
nutrition, safety or health, but a little more skeptical of those 
introduced primarily to address agricultural productivity.\6\ When 
consumers are presented with direct explanations of the direct benefits 
to consumers, they are much more willing to accept the technology.\7\
---------------------------------------------------------------------------
    \4\ Lusk, J.L., M. Jamal, L. Kurlander, M. Roucan and L. Taulman. 
``A Meta-Analysis of Genetically Modified Food Valuation Studies.'' 
Journal of Agricultural and Resource Economics 30(2005): 28-44.
    \5\ Heiman, A., D.R. Just and D. Zilberman. ``The Role of 
Socioeconomic Factors and Lifestyle Variables in Attitudes and the 
Demand for Genetically Modified Foods.'' Journal of Agribusiness 
18(2000): 249-260.
    \6\ Hossain, F. and B. Onyango. ``Product Attributes and Consumer 
Acceptance of Nutritionally Enhanced Genetically Modified Foods.'' 
International Journal of Consumer Studies 28(2004): 255-267.
    \7\ Wansink, B.A. Tal and A. Brumberg. ``Ingredient Based Food 
Fears and Avoidance: Antecedents and Antidotes.'' Food Quality and 
Preference 38(2014): 40-48.
---------------------------------------------------------------------------
    Consumers have also failed to grasp the benefits of biotechnology 
to society as a whole. GMOs have been instrumental in increasing 
agricultural productivity. This technology has reduced the price of 
commodities by 4% to 10%--a fact that is not understood by the typical 
consumer.\8\ Due to the labor, transportation and regulatory costs of 
food production in the U.S., the impact of this basic commodity price 
effect is much smaller at the highly processed retail level of most 
American food. However, this has had an important direct impact on 
consumers in the developing world. Given our era of historically high 
crop prices, this technology is essential to providing low cost food, 
particularly in developing countries. Additionally, some of the most 
successful introductions of GMOs have occurred in developing countries, 
as these new technologies hold the promise to overcome generations of 
relatively low agricultural yields and high levels of disease. For 
example, genetically modified eggplant in India is helping to reduce 
pesticide use and to increase the yields of relatively poor farmers. 
Pesticide use has a known and measurable impact on the health and 
longevity of farmers. Genetically modified corn in Africa has helped 
reduce the prevalence of Mycotoxin Fumonisin in maize,\9\ which has 
been linked to esophageal cancer and birth defects. This new technology 
promises to make developing country agriculture competitive with the 
west, and to help reduce poverty worldwide. Developing countries have 
paid a very high price for consumer rejection of biotechnology in the 
European Union, forcing them to choose between sustainable productivity 
and access to markets.\10\ Poor nations will face a further dwindling 
of fortunes if we fail to convince U.S. consumers of the benefits.
---------------------------------------------------------------------------
    \8\ Brookes, G., T-H. Yu, S. Tokgoz, A. Elobeid. ``The Production 
and Price Impact of Biotech Crops.'' Center for Agricultural and Rural 
Development Working Paper, Iowa State University, January 2010.
    \9\ Pray, C., J. Rheeder, M. Gouse, Y. Volkwyn, L. v.d. Westhuizen 
and G.S. Shephard. ``Can Bt Maize Reduce Exposure to the Mycotoxin 
Fumonisin in South Africa?'' Presented at the International Association 
of Agricultural Economists', Beijing China, 2009.
    \10\ Evenson, R.E., ``Status of Agricultural Biotechnology: An 
International Perspective.'' In Just, R.E., J.M. Alston and D. 
Zilberman (eds.), Regulating Agricultural Biotechnology: Economics and 
Policy. Springer: New York, 2006, pp. 103-123.
---------------------------------------------------------------------------
    Many of the consumers in the U.S. who are most sensitive to GMO 
consumption are also those who list concern for developing countries 
among their highest priorities. Unfortunately, these consumers often 
look on developing country adoption of GMOs as evidence of large U.S. 
corporations exploiting the poor. These corporations--despite wonderful 
cooperative efforts in developing countries--have failed to use their 
own good-will efforts to connect with concerned constituencies in the 
U.S. or Europe. If we are to turn the tide of irrational consumer fears 
regarding biotechnology, firms that produce GMOs must make a concerted 
effort to communicate both the direct health benefits to U.S. consumers 
from reduced use of chemicals in food production, and the indirect 
benefits to developing country consumers of more abundant and lower-
cost food. This effort will necessarily differentiate the various 
reasons for modification and should focus on branding the individual 
modifications rather than the entire technology. It is easy to 
stigmatize genetic modification as a benefit only to large 
agribusinesses, but it is difficult to stigmatize corn that is reducing 
the incidence of blindness in sub-Saharan Africa.
    Again, I would like to thank the Subcommittee for inviting me to 
testify. I would be pleased to answer any questions you may have.

    Mr. Davis. Thank you, Dr. Just.
    We will go in order where you are seated, Dr. Juma.

         STATEMENT OF CALESTOUS JUMA, Ph.D., PROFESSOR,
           PRACTICE OF INTERNATIONAL DEVELOPMENT, AND
DIRECTOR, SCIENCE, TECHNOLOGY, AND GLOBALIZATION PROJECT, JOHN 
F. KENNEDY SCHOOL OF GOVERNMENT, BELFER CENTER FOR SCIENCE AND 
                         INTERNATIONAL
           AFFAIRS, HARVARD UNIVERSITY, CAMBRIDGE, MA

    Dr. Juma. Thank you very much, Mr. Chairman. I am very 
grateful to the Committee for giving me the opportunity to come 
and testify here this morning.
    I had the opportunity in the past to serve as the Executive 
Secretary of the UN Convention on Biological Diversity that was 
drafting laws that were intended specifically to govern and 
regulate genetically modified products and at the time, it was 
argued that these products were unlikely to have any benefits 
to consumers, they are likely to harm the environment, and they 
are only likely to benefit the industrialized countries.
    I have spent the last 15 years or so since leaving that 
job, basically building up a body of evidence of what has 
happened since then, and the evidence does not support those 
claims. Unfortunately, those are the claims that led to the 
introduction of a wide range of laws and restrictions around 
the world that have made it difficult, in fact, for consumers 
to benefit from the dramatic advances of agricultural 
biotechnology.
    This country has been a champion in leading the creation of 
the industry. It was because of a decision in this country to 
allow the patenting of living organisms that the industry, the 
biotechnology industry was actually born. The lifespan of a 
patent is roughly 20 years. If it takes about 20 years to 
approve a product and get it to the market, that is really a 
major obstacle and a disincentive to anybody who wants to 
invest in biotechnology.
    A good example of that is the case of transgenic salmon in 
this country which has taken 20 years of regulatory effort. A 
patent lasts almost as long. So we do have really very 
significant barriers to the ability of the global community to 
benefit from biotechnology, but the evidence is very clear. We 
have seen it in the case of India, for example, and parts of 
Africa where biotechnology cotton has been adopted. Farm 
incomes have gone up by 50 percent. These farmers have, 
therefore, been able to have additional revenue with which they 
have been able to afford food, so we see a direct impact of 
increases in biotechnology, adoption in biotechnology, 
increases in farm income and food security.
    And so it is evidence that sovereign leadership is really 
essential in ensuring that the global community can benefit 
from these advances.
    And there are really two areas that I think are very 
important. The first is public awareness, education of the 
public so the public is fully informed about the benefits of 
biotechnology. At the moment, that space for public education, 
as has already been mentioned, is already occupied by people 
who spend most of their time denigrating biotechnology. I think 
a lot more work needs to be done in that area.
    Second, the area of making it possible for biotechnology 
products to be approved in a timely manner is a very important 
aspect of ensuring that consumers can benefit from the product, 
so I would like to make a case that in fact sovereign 
leadership in this country, particularly, which championed the 
creation of the industry, is critical to enabling the global 
community to benefit from biotechnology.
    Thank you very much for giving me the time, and I will be 
happy to answer questions.
    [The prepared statement of Dr. Juma follows:]

  Prepared Statement of Calestous Juma, Ph.D., Professor, Practice of
   International Development, and Director, Science, Technology, and 
  Globalization Project, John F. Kennedy School of Government, Belfer 
   Center for Science and International Affairs, Harvard University,
                             Cambridge, MA
Societal Benefits of Agricultural Biotechnology
Global Status and Outlook
Executive Summary \1\
---------------------------------------------------------------------------
    \1\ The submission uses the term ``transgenic crops'' to refer only 
to those crops that have been developed through the use of genes 
derived from unrelated species. All crops that are in use today have in 
one way or another been genetically modified through methods that do 
not involve the transfer of genes across species. This paper is 
therefore concerned only with transgenic crops and not all genetically 
modified (GM) crops, which include plants derived from conventional 
plant breeding.
---------------------------------------------------------------------------
    The rise of the U.S. biotechnology industry is largely a result of 
reforms in intellectual property rights that allowed for the patenting 
of living forms. However, global regulatory hurdles have made it 
difficult for society to fully reap the benefits of biotechnology. 
Society's innovative and entrepreneurial potentialities will be hobbled 
if the regulatory process for new biotechnology products takes as long 
as the duration of patent protection, which is at most 20 years. It has 
taken as long for the United States to complete the approval process 
for transgenic salmon. Worldwide, even more onerous and discriminatory 
hurdles stand in the way of societal benefits of biotechnology. 
Biotechnology product pipelines are being choked by discriminatory 
regulations, labeling threats, and a rising tide of product 
disparagement and misinformation.
    This submission argues that although many transgenic crops are 
still in their early states of adoption and even more are still being 
tested and developed, emerging trends show significant societal 
benefits through positive economic impact (especially by raising farm 
incomes), fostering food security, and promoting environment 
sustainability. The crops show the potential to increase agricultural 
production on existing arable land; reduce losses related to pests, 
disease, and drought; increase access to food through higher farm 
incomes; raise nutrition levels; and promote sustainable agriculture. 
The pipeline of crops with potential benefits include a wide range of 
applications such as enhanced photosynthesis, stress tolerance, 
aluminum tolerance, salinity tolerance, pest and disease resistance, 
nitrogen use efficiency, phosphate use efficiency, and nitrogen 
fixation. However, restrictive regulations are undermining the ability 
of society to reap these benefits.
    The largest benefits of transgenic crops are economic and derive 
from increased income from higher yields and resistance to loss. The 
best example of this is in India, where transgenic cotton production 
per hectare is demonstrably higher than that of non-transgenic cotton. 
Indian smallholder farmers who planted Bt cotton earned 50% more from 
higher production due to reduced pest damage. With the extra income, 
farmers' food consumption levels increased. Likewise, farmers from 
countries as diverse as South Africa, the Philippines, and the United 
States who planted Bt maize saw significantly higher yields. In the 
United States, transgenic papaya helped save the industry in Hawaii, 
and it is predicted that agricultural biotechnology is the most 
promising option for combating the citrus greening that is severely 
impacting those industries in Florida, Texas, and California. Finally, 
crops are currently in the pipeline that address loss related to local 
pests and disease in developing countries. Examples include transgenic 
bananas that combat Xanthomonas wilt (Uganda, Kenya), pest-resistant 
eggplant (Bangladesh, India, Philippines), and pest-resistant cowpea 
(Nigeria).
    Second, transgenic crops offer the ability to biofortify key crops, 
which is especially helpful in numerous countries where Vitamin A 
deficiency is a concern (e.g., Golden Bananas in Uganda and Golden Rice 
in the Philippines). Furthermore, other developing countries are 
seeking to promote increased agricultural production of key staple 
crops that offer nutritional benefits such as transgenic cassava and 
sorghum in Sub-Saharan Africa. Other crops in the pipeline with 
nutritional benefits include high-oleic oil soybean, which aims to 
eliminate trans fats, and the ``Arctic Apple,'' designed to resist 
browning and therefore encourage healthier lunch choices among 
schoolchildren.
    Finally, transgenic crops offer environmental benefits by requiring 
less spraying of pesticides, reducing the amount of arable land needed 
for increased agricultural production, and combating the effects of 
climate change through the development of drought-resistant crops such 
as Water Efficient Maize for Africa (WEMA). Reduced spraying of 
insecticides results in improved human and ecological health (NAS 
2010b).
    To realize the potential of transgenic crops, it is important to 
view them as one of the many sources of food security and to assess the 
benefits and risks on a case-by-case basis. Given rising agricultural 
challenges including the impact of climate change, it would be a 
mistake to adopt agricultural policies that expressly exclude 
transgenic crops as one of the options.
    The early days of the introduction of transgenic crops were marked 
by divergent views over the long-term benefits and risks. It has been 
18 years since the large-scale commercial release of the products and 
there is now sufficient evidence upon which to base historical 
assessments. For example, many of the policies adopted by emerging 
countries to regulate transgenic crops assumed that their risks were 
likely to be catastrophic, thereby requiring a high degree of caution. 
While careful monitoring of the crops continues to be warranted, the 
evidence so far available does not support the adoption of restrictive 
and costly regulatory policies.
    Transgenic crops have recorded the fastest adoption rate of any 
crop technology in the last century. This is mainly because of the 
benefits that they confer to farmers, most of whom reside in developing 
countries. Between 1996 and 2013, transgenic crops added US$116.9 
billion to global agriculture, more than \1/2\ of which accrued to 
farmers in developing countries. If the crops had not been introduced, 
the world would have needed another 123 million hectares of land to 
meet the same levels of production. These benefits are inconsistent 
with earlier concerns that transgenic crops would not benefit small-
scale farmers.
    Evidence from large-scale studies supports the view that the crops 
on the market do not carry unique risks. For example, the European 
Commission funded more than 50 research projects involving 400 
researchers at the cost of =200 million to evaluate this issue. The 
studies found that ``the use of biotechnology and of GE plants per se 
does not imply higher risks than classical breeding methods or 
production technologies'' (European Commission 2010, p. 16). The 
journal Critical Reviews of Biotechnology recently published a 
comprehensive literature review covering the last 10 years of 
transgenic crop safety and effects on biodiversity and human health. It 
concluded that ``the scientific research conducted thus far has not 
detected any significant hazard directly connected with the use of GM 
crops'' (Nicolia, et al., 2013, p. 2).
    Transgenic crops have been shown to carry the same risk profile as 
their conventional counterparts. In the long-run, the risks of 
excluding transgenic crops from global agricultural options would 
outweigh the risks of including them. Moreover, preventing the 
commercialization of transgenic crops undermines countries' abilities 
to leverage the power of biotechnology whose benefits extend to other 
fields such as health, environmental management, and informatics.
    The way forward is clear. As mentioned, transgenic crops not only 
offer increased incomes for farmers, biofortification, and 
environmental benefits. But the impact of transgenic crops on the 
overall price of food is just as important, especially in a world where 
there is a need to feed a growing population of approximately nine 
billion by 2050 and address a surge in consumption, including a 70% 
increase in the demand for food. Transgenic technology leads to more 
efficient production methods as well as a reduction in loss, which in 
turn leads to lower food prices both in the United States and abroad.
    The balance of evidence suggests that transgenic crops offer no 
greater risks than their conventional counterparts, and their economic, 
nutritional, and environmental benefits are extensive. Yet whether or 
not the crops described above reach the farmers and consumers who need 
them most depends on the regulatory agencies and the lengthy and costly 
approval processes of each country, as well as on public resistance to 
transgenic crops in general.
    The United States has historically played a critical role as a 
champion of biotechnology innovation worldwide. Its leadership is 
urgently needed at a time when global agricultural challenges are 
mounting. More specifically, there is a need to bring the regulatory 
processes governing the approval of agricultural biotechnology in line 
with the state of scientific knowledge pertaining to the crops and 
scientific advances. There is no alternative to the evidence-based 
regulatory processes that have enabled the United States to emerge as 
the world's biotechnology innovation powerhouse. To cede this 
responsibility to opponents of innovation will undermine U.S. 
competitiveness, erode its scientific leadership, and put the global 
community at risk from the rising economic and ecological challenges. 
It will deprive global citizens of important societal benefits of 
agricultural biotechnology. Put more directly, a national whose 
regulatory processes take as long as the duration of a patent cannot 
continue to be a champion of innovation. This has to change and there 
is no better time than the present.
Contents
  Executive summary

  Introduction

    1. Global societal challenges

      Agriculture and the wider economy

      Food security and nutrition

      Sustainability and resilience

    2. Societal benefits of agricultural biotechnology

      Agricultural production

      Agricultural and the economy

      Food safety and nutrition

      Sustainability and resilience

    3. Policy implications and outlook

  Conclusion

  References

  Acknowledgements

  Biographical summary
Introduction
    The rise of the U.S. biotechnology industry is largely a result of 
reforms in intellectual property rights that allowed for patenting of 
living forms. However, regulatory hurdles around the world have made it 
difficult for society to fully reap the benefits of biotechnology. 
Society's innovative and entrepreneurial potentialities will be hobbled 
if the regulatory process for new biotechnology products takes as long 
as the duration of patent protection, which is at most 20 years. It has 
taken as long for the United States to complete the approval process 
for transgenic salmon. Worldwide, even more onerous and discriminatory 
hurdles stand in the way of societal benefits of biotechnology. 
Biotechnology product pipelines are being choked by discriminatory 
regulations, labeling threats, and a rising ride of product slander and 
misinformation.
    There is a need to feed a growing population of about nine billion 
by 2050 and address a surge in consumption, including a 70% increase in 
the demand for food. Climate change and rising food prices will 
negatively impact African countries the most. The challenge of feeding 
a growing population will include increasing production on existing 
arable land. One of the ways to combat climate change and higher food 
prices is to expand the agricultural innovation toolkit, which includes 
transgenic crops. The aim of this submission is to review the societal 
impacts of transgenic crops, which range from increased food security 
to economic, nutritional, and environmental benefits. In addition to 
these, both farmers and consumers benefit: the former from increased 
income and the latter from lower prices stemming from more efficient 
production, improved nutrition and environmental protection. 
Furthermore, small farmers in developing countries are shown to benefit 
just as much as their counterparts in industrialized countries. 
Finally, ``adopters report improvements in health, education, debt 
repayment, maternal care services and food security'' (Carpenter, 2013, 
p. 249).
    This submission argues that although many transgenic crops are 
still in their early states of adoption and even more are still being 
tested and developed, emerging trends show significant societal 
benefits through positive economic impact (especially by raising farm 
incomes), fostering food security, and promoting environmental 
sustainability. The pipeline of crops with potential benefits include a 
wide range of applications such as enhanced photosynthesis, stress 
tolerance, aluminum tolerance, salinity tolerance, pest and disease 
resistance, nitrogen use efficiency, phosphate use efficiency, and 
nitrogen fixation (UK Council for Science and Technology, 2013).
    The submission is divided into three sections. The first section 
outlines trends in food security and biotechnology. This is followed by 
a section that examines some of the examples of the role of transgenic 
crops in the wider economy, especially in raising farm incomes. The 
final section reviews some of the major regulatory challenges 
associated with the adoption of transgenic crops and animals, as well 
as outlining a way forward.
    There are many claims that biotechnology cannot contribute to 
solving food insecurity or benefit smallholder farmers. Critics argue 
that biotechnology is a red herring--that food insecurity is simply the 
result of poor infrastructure, distribution, and income level. 
Transgenic crops are also criticized for being part of the agro-
industrial complex. Critics link transgenic crops with increased 
pesticide use, monoculture, and industrialized farming at the expense 
of smallholder farmers. They argue that large agricultural corporations 
perpetuate food insecurity by selling expensive, unnecessary technology 
to poor farmers; preventing farmers from saving seeds; destroying plant 
diversity; and displacing millions of farmers. Critics claim that 
transgenic crops were developed with industrialized countries in mind; 
that they would hardly be adopted or accepted in developing countries; 
and that the technology continues to ignore the plight of smallholders.
    These claims are driven by a wide range of concerns that tend to 
assert what has not been denied and deny what has not been asserted. In 
fact, transgenic crops demonstrate numerous societal benefits. But 
realizing the potential needs to be viewed in a wider food security 
context.
1. Global Societal Challenges
    Agricultural and the wider economy: There is a need to feed a 
growing population of approximately nine billion by 2050; address a 
surge in consumption and changing diets, including a 70% increase in 
the demand for food; and compensate for increasing biofuels production. 
Meanwhile, around 870 million people are undernourished (Searchinger, 
et al., 2013, p. 1). This will require a doubling of current levels of 
food production. A recent study analyzed the current production and 
yield rates for four key crops (maize, rice, soybean, and wheat) and 
determined that annual yields are increasing at an average rate of 
1.2%, or \1/2\ the 2.4% rate that would double production and close the 
gap. At current rates, global production of each crop will only 
increase by approximately 67%, 42%, 38%, and 55%, respectively--well 
below what is needed to meet the expected demand (Ray, et al., 2013). 
This is especially problematic in many developing countries where one 
or more of these crops are responsible for the majority of caloric 
consumption.
    Transgenic crops can benefit smallholder farmers in several major 
ways. First, they help farmers avoid both production and income loss 
due to pests, disease, and environmental factors such as drought or 
flooding. This results in greater productivity. Insect-resistant (IR) 
traits are found to have the greatest impact in warm, tropical places 
where pests are more prevalent and where insecticides and inputs are 
not widely used--namely in emerging countries.
    Essentially, food security is about expanding ecologically 
sustainable agricultural practices as well as increasing access to 
nutritious food. The rest of this submission seeks to address how 
biotechnology can play a role in increasing agricultural productivity, 
income levels, nutrition, and stability and resilience of the food 
system to various shocks, thereby helping to increase food security at 
the global level but especially in emerging countries.
    Boosting agricultural production contributes directly to poverty 
alleviation by raising farm incomes, providing jobs, and reducing the 
cost of food. Agriculture is responsible for the majority of employment 
in many parts of the world. In fact, a World Bank report (2008) has 
shown that the growth of the agricultural sector is more effective at 
reducing poverty than is growth in any other sector. In Sub-Saharan 
Africa for example, agriculture ``contributes to 34% of GDP and 64% of 
employment'' across the continent (Juma, 2011a, p. 7). Because 
agriculture will continue to be an important source of employment in 
the future as well, increasing agricultural production will result in 
increased farm income and consumption.
    Furthermore, in areas where farmers face a variety of problems and 
farm extension services are limited, biotechnology can be successful at 
filling the void, as it can make farming less complex, which suggests 
that ``farmers with less human capital may benefit the most'' (Sexton 
and Zilberman, 2010, p. 13).
    Food security and nutrition: Advancements in science have 
demonstrated the important role that niche crops can play in improving 
human health. Achieving food security depends not only on increasing 
production but also on improving nutrition. Increasing the production 
of niche crops--also known as ancient grains, orphan crops, lost crops, 
famine crops, local crops, neglected crops, or wild foods--is one way 
to achieve this. Technological advancements in agricultural 
biotechnology and advances in fields such as plant genomics allow for 
the enhancement of existing crops and the ability to breed new ones 
that meet higher nutritional standards. Furthermore, many communities 
rely on niche crops, so increasing their production would also improve 
nutrition in food-insecure areas (Juma, 2014).
    Sustainability and resilience: It is well established that the 
effects of climate change--from weather-related phenomena to rising 
food prices--will drastically affect agricultural productivity 
worldwide and developing countries the most. Measures will need to be 
taken to adapt crops to changing weather patterns. Changes in humidity 
are already affecting the world's primary cocoa-growing regions, while 
drought has affected maize crops in both the United States and sub-
Saharan Africa. In Southeast Asia, rice yields are affected by drought, 
salinity, and rising sea levels (Redfern, et al., 2012).
    Another dimension to the need for increased food production is 
related to agriculture's historically large environmental footprint--
the industry ``accounted for approximately 24 percent of global 
greenhouse gas emissions in 2010'' (Searchinger, et al., 2013, p. 2). 
It is also responsible for around 70% of global freshwater use, as well 
as contamination of water supplies and coastal areas from farm runoff. 
One of the biggest challenges of feeding a growing population is 
increasing production on existing arable land. Agricultural 
biotechnology not only has the potential to adapt crops to climate 
change, but it can also contribute to increasing yields on existing 
land and reducing emissions by encouraging fewer applications of 
pesticides and herbicides.
2. Societal Benefits of Agricultural Biotechnology
2.1  Agriculture and the wider economy
    Technology played an important role in generating significant 
increases in agricultural productivity during Green Revolution. The 
combination of new, high-yielding crop varieties, agro-chemicals, and 
better irrigation techniques helped ``raise food production to levels 
that no one would have dared predict . . . farmers in the developing 
and developed countries nearly doubled their per-hectare output of 
cereal production, increasing yields during this time by 3.16% 
annually'' (Huang, et al., 2002, p. 678). This led to a significant 
decline in poverty and hunger throughout much of Asia, because food 
levels rose, prices fell, as well as food trade and consumption 
increased.
    However, the favorable conditions that led to the success of the 
Green Revolution have changed. Staple crops will be most affected by 
the ``exhaustion of some past sources of growth [making] future yield 
expansion as great a challenge as in the past'' (Ibid., p. 678). 
Overuse of fertilizers and chemical pesticides has led to pest and weed 
resistance. It has also contributed to environmental degradation. 
Moreover, availability of arable land is declining, water resources are 
scarce and climate change is causing significant changes in weather 
patterns, making it necessary to find alternatives to current 
production methods.
    Transgenic crops offer one alternative to addressing these 
challenges, as they are specifically designed to increase production 
while decreasing the use of pesticides and herbicides. A key point is 
that transgenic crops were not developed to increase yield directly but 
instead ``to overcome barriers to efficient yield, that is, to control 
diseases, or yield-robbing weeds or insect pests'' (McHughen, 2013, p. 
7). Increased production is necessary to feed a growing population and 
meet an ever-increasing demand for food. The genetically modified 
soybean enabled double-cropping in Argentina, which specifically helped 
to meet the huge increase in soy demand-driven primarily by an 
increased desire for meat in Asia--with only a limited effect on prices 
(Zilberman, et al., 2010).
    Although studies that examine production increases of transgenic 
crops have produced varying estimates, recent cotton studies in India 
and China confirmed earlier results: transgenic cotton production per 
hectare are demonstrably higher than those of non-transgenic cotton, 
especially in India. Other benefits include decreased pesticide use 
especially in China, and health benefits in both countries (Pray, et 
al., 2011). Cotton was the most-adopted genetically engineered crop 
globally and saw the highest production increase, and the global price 
effects of planting Bt cotton are estimated at 10% (Zilberman, et al., 
2010).
    India had one of the lowest rates of cotton production in 2001-02 
(at 308kg/ha). Aggregate levels of cotton increased substantially after 
the introduction of Bt cotton post-2002, reaching 560kg/ha (Pray, et 
al., 2011, p. 98). Bt cotton was adopted at a rate of 90%, leading to 
``a 24% increase in cotton yield per acre through reduced pest damage 
and a 50% gain in cotton profit among smallholders. These benefits are 
stable; there are even indications that they have increased over time'' 
(Kathage and Qaim, 2012). With the extra income, farmers' consumption 
levels increased 18% from 2006 to 2008 (Juma, Conceicao, and Levine, 
2014; Kathage and Qaim, 2012).
    In China, where surveys were conducted from 1999 to 2007, mean 
production of Bt cotton was higher than conventional cotton. One 
concern is that Bt cotton production levels will decline over time due 
to the development of bollworm resistance or as a result of being 
``backcrossed into more varieties by public- and private-sector plant 
breeders'' (Pray, et al., 2011, p. 93). Yet evidence does not support 
these concerns as ``aggregate cotton yields continue to rise in China 
suggesting that Bt cotton also continues to do well'' (Ibid.).
    A global impact study confirms the significant income gains among 
farmers in India and China who adopted transgenic IR cotton, transgenic 
Bt soybeans in South America (including Argentina, Bolivia, Brazil, 
Paraguay, and Uruguay), and a variety of transgenic crops in the United 
States. South Africa, the Philippines, Mexico, and Colombia are also 
seeing the income benefits of adopting transgenic crops. These gains 
stem from greater productivity and efficiency. The largest income gains 
derive from the maize sector. In fact, ``$6.7 billion additional income 
generated by GM insect resistant (GM IR) maize in 2012 has been 
equivalent to adding 6.6% to the value of the crop in the GM crop 
growing countries, or adding the equivalent of 3% to the $226 billion 
value of the global maize crop in 2012. Cumulatively since 1996, GM IR 
technology has added $32.3 billion to the income of global maize 
farmers'' (Brookes and Barfoot, 2014, p. 9).
    In Africa, where smallholder farmers use significantly fewer inputs 
than in developed countries, IR crops could have the greatest impact on 
production. By adapting the technology to local conditions, developing 
countries could also address the issue of yield drag, which occurs 
because companies typically modify generic seeds that are unspecific to 
a particular region. African countries could increase the production 
potential of transgenic crops by applying the technology to high-
quality, local crop varieties.
    Higher production is not the only positive impact of transgenic 
crops. They also help reduce loss due to pests, weeds, and diseases. 
The potential of this technology lies in how it is adapted to meet 
specific, local needs in developing countries, which can range from 
combating diseases to improving indigenous crops.
    Researchers in Uganda, for example, are using biotechnology to 
reverse the trend of Xanthomonas wilt, a bacterial disease that causes 
discoloration and early ripening of bananas and costs the Great Lakes 
region approximately $500 million annually. There is currently no 
treatment for the disease, and given its status as a staple crop in 
this region, solving this problem would directly increase food security 
and income (Juma, Conceicao, and Levine, 2014; Juma, 2011b). The most 
efficient method of containing the disease is by growing transgenic 
bananas instead of relying on more labor-intensive methods of removing 
and destroying affected bananas. By transferring two genes from green 
peppers, scientists were able to grow highly resistant bananas. Results 
from field trials in Uganda and Kenya are extremely promising, but the 
regulatory regimes do not yet allow for commercialization.
    In Nigeria the insect Maruca vitrata destroys nearly US$300 million 
worth of blackeyed peas--a major staple crop--and forces farmers to 
import pesticides worth US$500 million annually. To solve the problem, 
scientists at the Institute for Agricultural Research at Nigeria's 
Ahmadu Bello University have developed a pest-resistant, transgenic 
blackeyed pea variety using insecticide genes from the Bacillus 
thuringiensis bacterium. The crop is also undergoing field trials in 
Burkina Faso and Ghana.
    In Southeast Asian countries such as Bangladesh, India, and the 
Philippines, Bt brinjal is the region's first transgenic food crop and 
offers economic, nutritional, and environmental benefits. Researchers 
and scientists at the Bangladesh Agricultural Research Institute (BARI) 
developed Bt brinjal to resist the `fruit and shoot borer' (FSB), with 
support from USAID and Cornell University. The result was significantly 
fewer pesticide sprays during the growing period and fewer dips in 
pesticide just before harvest. The transgenic eggplant has obvious 
farmer health and environmental benefits from reduced pesticide use. 
The crop was commercialized in Bangladesh, but its future remains in 
jeopardy as the government and opponents of transgenic crops seek to 
push or stall further crop sales. Furthermore, the Filipino government 
prohibited field trials of Bt brinjal, citing health and environmental 
concerns. As a result, commercialization of the crop remains stalled in 
India and the Philippines, and its future remains uncertain in 
Bangladesh (Hammadi, 2014).
    Key industries in industrialized countries are also affected by 
loss from disease and pests. The most dramatic example is that of 
transgenic papaya, which helped save the industry in Hawaii. In the 
early 1990s, the papaya ringspot virus (PRSV) was transmitted rapidly 
by aphids and nearly decimated Hawaii's papaya industry, which saw 
yields plummet from 53 million pounds in 1992 to 26 million pounds in 
1998. After the introduction of the ``Rainbow'' papaya in 1998, yields 
rose to 46 million pounds by 2001. At the time, farmers, producers, and 
consumers alike embraced it. Today it accounts for 77% of the papaya 
grown in Hawaii (Gonsalves, 2007). Other examples of transgenic food 
crops ready for commercialization in the U.S. include Bt sweet corn, 
virus-resistant summer squash, and pox-resistant plums. Finally, 
agricultural biotechnology offers a similar promise for combating the 
citrus greening disease (Huanglongbing) that is severely affecting 
those industries in Florida, Texas, and California. Citrus greening is 
caused by the bacterium Candidatus Liberibacter asiaticus (CLas), 
spread by the Asian citrus psyllid (ASP). Florida's citrus industry 
brings in an estimated $9.3 billion annually. Farmers stand to lose 
income, and a dramatic reduction in output would lead to higher prices 
of citrus fruits and juices for consumers throughout the United States. 
Currently, increased use of insecticides and removal of infected fruit 
trees are the only known solutions. According to a recent report by the 
U.S. National Academy of Sciences, genetic engineering represents the 
best alternative to these costly and less-effective solutions (NAS, 
2010a, p. 2).
    It is also important to note what is not in the pipeline, namely 
smaller crops that are a staple in certain regions of the world but are 
unlikely to be developed in the foreseeable future because of 
prohibitive regulatory costs and risks. Regardless, promising 
transgenic vegetable crops such as insect-resistant bananas, blackeyed 
pea, eggplant, papaya, sweet corn, summer squash, plums, citrus fruits, 
and wheat must clear significant resistance and regulatory hurdles 
before their societal benefits can be realized.
    As demonstrated, these techniques have the potential to address a 
wide range of agricultural, health, and environmental issues in 
emerging countries, resulting in societal benefits such as increased 
productivity and therefore contributing to increased food security.
    Increasing production, reducing loss, and encouraging higher 
agricultural productivity among smallholder farmers has a significant 
effect on income and poverty. For one thing, growth in the agricultural 
sector is more effective at reducing poverty and increasing access to 
food than growth in any other sector. Since smallholder farmers 
comprise the majority of the workforce in sub-Saharan Africa, boosting 
their income levels through agricultural productivity would go a long 
way toward increasing food security.
    The evidence from several long-term studies suggests that 
biotechnology is successful at helping smallholder farmers increase 
their income through costs savings. The last section showed how 
transgenic crops improve production and reduce loss. This translates 
into higher incomes at the farm level. A recent study explains how 
planting transgenic crops results in cost-savings up front, 
specifically with IR crops, which ``require little capital and can 
substitute for chemical applications altogether'' (Zilberman, et al., 
2010, p. 5). Not only were farmers able to reduce pesticide use, but 
they were also able to limit the related health risks.
    Similarly, both IR and herbicide-tolerant (HT) crops can reduce 
input expenses associated with pesticide use, such as machinery costs, 
fuel costs, and water use. Although seed prices for transgenic cotton 
were higher than for conventional seeds in India, these costs were 
``offset by reductions in expenditures on pesticides and labor, due in 
large part to reductions in number of required sprays'' (Pray, et al., 
2011, p. 94). Overall production costs decreased, and net revenue 
increased. In fact, revenue from Bt cotton exceeded that of 
conventional cotton in every household surveyed in China (Ibid). 
Results of Bt cotton studies in India also indicated that cost savings 
related to pesticide use, as well as higher production, offset the 
higher seed costs.\2\
---------------------------------------------------------------------------
    \2\ Different studies used different methods for calculating income 
gain from Bt cotton, but all indicated significantly higher profit 
margins for Bt cotton farmers (Pray, et al., 2011, pp. 99-100).
---------------------------------------------------------------------------
    When faced with fewer costs up-front, a reduction in crop loss, and 
more time available to pursue other income-generating activities, 
farmers have more income at their disposal, which also leads to greater 
consumption. So far, Bt cotton--which is the most widely adopted 
transgenic crop worldwide--has had the most significant impact on 
income. Approximately 15 million smallholder farmers in Burkina Faso, 
China, India, Pakistan, and a few other developing countries are 
growing Bt cotton. Several studies in India demonstrate the positive 
effects of Bt cotton on income, nutrition, and food security among poor 
farmers. Specifically, ``Bt cotton adoption has raised consumption 
expenditures, a common measure of household living standard, by 18% 
during the 2006-2008 period'' (Kathage and Qaim, 2012). In Burkina 
Faso, which grew 125,000 hectares of Bt cotton in 2009, rural 
households saw production increases of approximately 18.2% over those 
that grew conventional cotton; earning $39 per ha in profit. Although 
the seeds were more expensive, farmers saved money on inputs and labor 
(Vitale, 2010). The reduced insecticide spraying also contributed to 
human and environmental health.
    Although Bt cotton does not directly contribute to better 
nutrition, it does indirectly contribute to food security by increasing 
household income levels and improving access to more nutritious food. 
This in turn increases the ``purchasing power of farmers (and thus 
their exchange entitlements) and their access to food'' (Juma, 
Conceicao, and Levine, 2014). A recent study analyzes the impact of Bt 
cotton on caloric consumption and nutrition at the household level in 
four cotton-producing Indian states from 2003-09. The authors find that 
households growing Bt cotton leads them to consume significantly more 
calories--specifically, ``each ha of Bt cotton has increased total 
calorie consumption by 74 kcal per AE [adult equivalent] and day'' 
(Qaim and Kouser, 2013, p. 6).
    Furthermore, a smaller proportion of households are food insecure 
(7.93% of adopting Bt cotton households vs. 19.94% of non-adopting 
households) (Ibid., table 2). The results also show that Bt adoption 
has led to consumption of more nutritious foods such as fruits, 
vegetables, and animal products. The authors estimate that if the 
households that do not currently grow Bt cotton switched, ``the 
proportion of food insecure households would drop by 15-20%'' (Ibid., 
p. 6).
    These findings indicate that increased income among smallholder 
farmer households that grow Bt cotton lead to greater food security and 
consumption of more nutritious food. But the results also demonstrate 
that farmers are the main beneficiaries of Bt cotton, rather than seed 
companies or biotechnology companies. This reinforces how plant 
biotechnology can be one important tool in addressing food insecurity.
    Finally, farmers have seen their insurance costs decline as 
production risks stabilize. As a result, they will also gain access to 
better risk-management products. Given the increased production and 
income associated with Bt cotton, it can be extrapolated that further 
development of IR crops could ``serve as an engine of rural economic 
growth that can contribute to the alleviation of poverty for the 
world's small and resource-poor farmers'' (James, 2013).
2.2  Food safety and nutrition
    The safety of transgenic foods has been a hotly debated issue. It 
gained international prominence following the publication of a paper 
that claimed that transgenic maize containing Bt genes caused cancer in 
rats (Seralini, et al., 2012). The paper was used as a basis for 
regulatory action against transgenic foods in a number of countries. 
Upon closer scrutiny, however, several regulatory bodies including the 
European Food Safety Agency condemned the study as being 
methodologically defective (Arjo, et al., 2013). The paper was later 
retracted by the journal that published it.
    It is important to apply a case-by-case approach and focus on those 
foods that are on the market. Detailed reviews of the evidence so far 
available have come to the conclusion that the transgenic foods 
currently on the market carry the same risk profile as their 
conventional counterparts (Ricroch, Berge and Kuntz, 2011). A 
comprehensive review of safety studies published over the last decade 
has examined the available evidence on the ``safety of the inserted 
transgenic DNA and the transcribed RNA, safety of the protein(s) 
encoded by the transgene(s) and safety of the intended and unintended 
change of crop composition'' (Nicolia, Manzo, Veronesi and Rosellini, 
2013, p. 81). While acknowledging the need for further research, the 
review confirmed the general understanding that transgenic foods on the 
market today did not carry unique risks.
    Interest in transgenic crops also includes their potential 
contribution to nutritional enhancement in staple crops, specifically 
targeting low-income families. There are several bio-fortified crops 
that are currently available or being tested in developing countries. 
These include ``Golden Rice,'' which contains more beta carotene or 
Vitamin A, under evaluation in the Philippines and Bangladesh; and the 
``Golden Banana,'' bio-fortified with Vitamin A and iron and developed 
by Ugandan researchers (Wamboga, 2011). Nearly 15 million people either 
rely on bananas for their income or consumption, making it one of the 
most important crops in Uganda. It is estimated that the per capita 
consumption of bananas in Uganda is 0.7 kg per day. Scientists applied 
the pro-Vitamin A genes used in Golden Rice to a popular local crop to 
help solve a regional health issue. Addressing Vitamin deficiencies 
would lead to lower healthcare costs and higher economic performance.
    In the UK, researchers at the John Innes Centre created a bio-
fortified ``purple tomato'' by expressing genes from the snapdragon in 
the transgenic tomato. The dark color derives from the same antioxidant 
that is found in blueberries and cranberries--anthocyanin--and offers 
similar health benefits at a lower cost to consumers. By increasing the 
antioxidant levels in a common food such as the tomato, researchers 
hope to stimulate greater consumption of antioxidants. The purple 
tomato contains the ``highest levels of anthocyanins yet reported in 
tomato fruit,'' and an early study of cancer-prone rats suggests that 
the tomato's high levels of anthocyanins increased the lifespan of 
these rats when eaten regularly. The purple tomato also has a longer 
shelf life than a nontransgenic tomato (Butelli, et al., 2008; Shukman, 
2014).
    Other examples include the ``Arctic apple'' and J.R. Simplot's 
``Innate'' potato, under development in Canada and the United States 
respectively. Both crops are designed to resist browning, making the 
apple an especially appealing choice for healthier school lunches. 
Browning is one of the most significant sources of food quality loss 
worldwide. The techniques applied by such companies to address the 
challenge have the potential to be extended to fruits and vegetables in 
other regions of the world experiencing similar challenges. This would 
extend the shelf life of fruits and vegetables, thereby addressing the 
larger post-harvest loss problem.
    Nutritional enhancements through genetic modification are still in 
their infancy. Examples such as Golden Rice and purple tomatoes are 
important because they represent proof of concept. When confirmed, they 
will open a wide range of opportunities for related modifications in 
other crops as well as the use of new techniques to improve human 
nutrition.
2.3  Sustainability and resilience
    It is well established that climate change will adversely affect 
agricultural productivity primarily in developing countries. Many 
regions are expected to suffer production loss due to ``drought, flood, 
storms, rising sea levels, and warmer temperatures'' (Goering, 2012). 
In the past, these events were rare, and it was possible for farmers 
and regions to recover during the next growing season. Now it is 
imperative to determine ways of increasing the resilience and stability 
of food systems so that productivity is less affected by drought, 
flood, or both in the same season. Challenges include increasing 
productivity on existing land to conserve biodiversity and protect 
vulnerable land, as well as reducing agriculture's traditionally large 
environmental footprint.
    Transgenic crops, for example, are one of the better land-saving 
technologies available, as they are designed to increase production on 
existing plots, avoiding slash and burn agriculture often practiced in 
developing countries. Indeed, ``if the 377 million tons of additional 
food, feed and fiber produced by biotech crops during the period 1996 
to 2012 had been grown conventionally, it is estimated that an 
additional 123 million hectares . . . of conventional crops would have 
been required to produce the same tonnage'' (James, 2014a).
    Transgenic crops have succeeded in reducing the environmental 
impact of agriculture by reducing pesticide use (by an estimated 8.5% 
in 2011 alone); and reducing fossil fuels and CO<INF>2</INF> emissions 
through less ploughing and less chemical spraying (saving approximately 
1.9 billion kg of CO<INF>2</INF>--the equivalent of removing 11.8 
million cars from the road). The adoption of HT crops allows farmer to 
use a single broad-spectrum herbicide.
    Limiting the practice of tilling, which is the use of mechanization 
for planting, weed control, and harvesting, is an important trend in 
sustainable agriculture. It refers to ``direct planting into previous 
crop stubble without further soil disturbance'' (Dill, et al., 2008, p. 
329). Farmers who practice conservation tillage aim to leave 30% 
residue on the surface of the soil, which can help reduce soil erosion 
by 70%.
    Finally, several biotechnology tools, including tissue culture, 
diagnostics, genomics, and marker-assisted selection can be used 
collectively to isolate new traits such as drought or flood tolerance 
that can help mitigate the effects of climate change.
    In 2012, drought wreaked havoc on maize production in the United 
States, highlighting what farmers in Africa already know: drought is, 
``by far, the single most important constraint to increased 
productivity for crops worldwide.'' The development of drought-tolerant 
crops is arguably the most important transgenic trait that will occur 
in the next decade of commercialization (Edmeades, 2013). The gene in 
question was isolated from a common soil bacterium known as Bacillus 
subtilis. It helps the plant cope better with stress caused by water 
shortages, allowing the plant to focus on filling the grains. In 2013, 
some 2,000 American farmers started to grow drought-tolerant maize. 
Indonesia has approved field trials of drought-tolerant sugarcane. 
Field trials of drought-tolerant maize, wheat, rice and sugarcane are 
in field trials in Argentina, Brazil, India, Egypt, South Africa, Kenya 
and Uganda (Marshall, 2014). It is hoped that the first drought-
tolerant maize will be commercially available in sub-Saharan Africa by 
2017.
    In March 2008, a public-private partnership called `Water Efficient 
Maize for Africa' (WEMA) was formed between Monsanto, which developed 
the drought-resistant technology; the African Agricultural Technology 
Foundation, which directs the partnership; the International Maize and 
Wheat Improvement Center; and five national agricultural research 
systems in East and Southern Africa (including Kenya, Mozambique, South 
Africa, Tanzania, and Uganda). WEMA is working to make the drought-
resistant technology available to smallholder farmers through local and 
regional seed companies. The crop is being developed using conventional 
breeding, marker-assisted selection, and genetic modification to find 
the optimal crop for local conditions. Confined field trials thus far 
show 20-30% higher production than conventional hybrids. Sites were 
selected specifically for their dry conditions. The five national 
research systems are coordinating the field trials. WEMA hopes to offer 
at least five ``farmer-preferred'' IR maize hybrids with and without 
the drought-tolerant gene by 2017, pending field trials and regulatory 
approval. It is undergoing field trials in Kenya, South Africa, and 
Uganda, but the regulatory regimes in Mozambique and Tanzania so far 
prohibit field trials.
    The 2008 food crisis demonstrated the effect of an increase in 
demand and a tightening of supply on the price of rice. After severe 
flooding in 2007 and 2008 decimated rice production in Southeast Asia, 
twelve countries including India and China responded by initiating 
export restrictions. Riots broke out in Haiti, Bangladesh, and Egypt. 
Although the food crisis affected all grains, a shortage of rice would 
prove disastrous. According to the International Rice Research 
Institute (IRRI), in 2005, rice comprised 20% of global calories 
consumed; in Asia, 30%. In addition, ``two-thirds of the world's poor . 
. . subsist primarily on rice.'' With consumption and prices rising, 
production declining, and climate change effects expected to grow 
(e.g., Asia currently loses approximately $1 billion from flooding), 
IRRI estimates that ``by 2015 the world must grow 50 million tons more 
rice per year than the 631.5 million tons grown in 2005. This will 
require boosting global average yields by more than 1.2% per year, or 
about 12% over the decade'' (Normile, 2008).
    Furthermore, 25% of the global rice supply comes from flood-prone 
regions. One solution has been to isolate the gene present in a variety 
of Indian rice that allows plants to survive after up to 3 weeks 
underwater. In collaboration with IRRI, researchers at the University 
of California at Davis used marker-assisted selection to breed this 
gene into locally important varieties. The result is a variety of rice 
that can tolerate flooding but which also retains the capability to 
produce high production. IRRI partnered with PhilRice, a nonprofit 
organization in the Philippines, to distribute the rice free of charge 
to seed growers and certain farmers who can disseminate further to 
other farmers. In 2011, over one million farmers in the Philippines, 
Bangladesh, and India planted the rice (Clayton, 2009; Ronald n.d.) So 
far, it has led to production increases of 1-3 tons after 10-15 days of 
flooding. Other varieties are also being studied, including drought 
tolerance, heat and cold tolerance, and salt tolerance. In Africa, IRRI 
is partnering with the Africa Rice Center (AfriRice) to develop rice 
that can tolerate poor soils.
    Two other crops in the pipeline are being developed to resist cold 
temperatures (eucalyptus) and drought (sugarcane). These examples prove 
that agricultural biotechnology has the potential to increase the 
resilience of crops to climate change.
3. Regulatory Implications and Outlook
    The claim that transgenic crops have no societal benefits is 
clearly false. As population growth, climate change, and rising food 
prices become more important, it is imperative to consider all options 
for increasing agricultural productivity. Transgenic crops offer one 
option in the agricultural innovation toolbox, and must be considered 
as such. To be sure, transgenic crops are not without criticism. 
However, biotechnology is an important tool that society can use to 
address food security. Risks should be taken into account and the 
technology strengthened, but to deny farmers the right to grow 
transgenic crops would be irresponsible.
    Combating these production, economic, nutritional, and 
environmental challenges necessitates the expansion of the agricultural 
innovation toolkit, which includes agricultural biotechnology. It is 
important to note, however, that agricultural biotechnology is one 
option among many for increasing food security. To truly have an 
impact, it must be viewed in a context of system-wide improvements in 
agriculture (Juma and Gordon, 2014).
    Agricultural biotechnology, which was commercialized on a large 
scale in 1996, refers to the application of scientific information and 
methods such as genetic modification of crops or animals to select 
certain traits that are more productive or desirable. Plant breeders 
have long sought to improve crops through traditional methods such as 
cross-breeding and hybridization, a time-consuming process that results 
in the presence of undesirable traits mixed in with desirable ones. 
Genetic modification is a significantly faster, more precise technology 
that is designed to achieve similar results as conventional plant 
breeding techniques by allowing the transfer of one specific gene to 
another plant.
    The major types of transgenic crops commercially available are 
herbicide-tolerant crops that are resistant to broad-spectrum 
herbicides such as glyphosate and gluphosinates; insect-resistant crops 
that include genes from a specific bacterium, Bacillus thuringiensis 
(Bt), which is poisonous to certain insects and not humans; and crops 
with a combination of both (stacked trait). HT and IR traits help make 
weed and pest control more efficient, as crops need fewer applications 
of herbicides and/or eliminate the need for pesticides. HT crops are 
the most common, comprising more than \1/2\ of the 175 million hectares 
of transgenic crops grown globally in 2013, followed by stacked-trait 
crops at 27%, and IR crops at around 16% (James, 2014a; James, 2014b).
    Both first- and second-generation transgenic crops are produced 
commercially; most consist of animal feed, fiber, and biofuels. First-
generation crops typically have a single trait introduced. Newcomers, 
such as Burkina Faso, benefit most from adopting second-generation 
transgenic seeds, which contain two or more genes to resist specific 
pests or weeds. Monsanto's Genuity<SUP>TM</SUP> Bollgard II<SUP>'</SUP> 
cotton, for example, ``work[s] against leaf-eating species such as 
armyworms, budworms, bollworms, and loopers . . . [and] cotton leaf 
perforators and saltmarsh caterpillars'' (Juma, 2011a, p. 37). Second-
generation cotton is a superior technology because it takes longer for 
pests to develop resistance. First-generation transgenic technology is 
still beneficial but will break down sooner in terms of pest 
resistance. Researchers and scientists have come a long way since 
developing these early-generation crops. Today there are also multi-HT 
crops such as corn, cotton, and soybeans that provide farmers with even 
more options for combating weeds. It is important to note, however, 
that most transgenic crops grown today are either cash crops or are 
used in animal feed, cooking oils, and biofuels (Rotman, 2013). 
Opposition to transgenic food crops has been so strong that investment 
in their development has been limited. There are, however, transgenic 
crops in the pipeline have the potential to offer significant societal 
benefits if they can overcome regulatory hurdles and reach the market. 
These crops will be discussed in the following sections.
    Developing countries have seen clearly the potential of transgenic 
crops to increase agricultural productivity, income, and food security. 
Since their commercial introduction in 1996, transgenic crops have been 
one of the ``fastest adopted crop technologies in recent history'' 
(James, 2014a). In 2013, ``a record 175.2 million hectares of biotech 
crops were grown globally . . . at an annual growth rate of 3%'' 
(James, 2014a). This is a 100-fold increase from 1996, when 1.7 million 
hectares were planted. Of the 28 countries that plant transgenic crops, 
20 are developing countries. Finally, 90% of those who grew biotech 
crops--that is, more than 16 million--were resource-poor smallholder 
farmers in developing countries (Ibid.). The impact of transgenic crops 
at the farm level has been significant. In 2011 alone, net economic 
benefits were $19.8 billion, and cumulative economic benefits amounted 
to $98.6 billion since 1996. The key point is that the ``majority of 
these gains (51.2%) went to farmers in developing countries'' (Brookes 
and Barfoot, 2013, p. 74).
    Yet countries worldwide could benefit even more from adapting 
biotechnology to address local problems. The technology used to delay 
the ripening of tomatoes, for example, could be applied to tropical 
fruits, which ripen too quickly and end up going to waste due to lack 
of proper storage or transportation infrastructure. Another problem 
that is prevalent in tropical countries is soil acidity. ``Acidic soils 
comprise about 3.95 billion ha . . . about 68% of tropical America, 38% 
of tropical Asia, and 27% of tropical Africa. In spite of its global 
importance . . . problems that affect acid soils are investigated by 
only a handful of scientists in developed countries'' (Herrera-
Estrella, 2000, p. 924). This problem is not limited to soil acidity. 
In fact, there is much scope for developing countries, especially in 
Africa, to invest in their own science and technology research 
institutes, which would allow local scientists to come up with 
solutions specific to local contexts. This is also relevant for the 
United States, which is spending millions of dollars combating citrus 
greening in Florida, Texas, and California, where the simplest and most 
cost-effective solution would be to employ agricultural biotechnology.
    Despite the obvious benefits, however, transgenic crops and animals 
for human consumption face some the most stringent regulatory processes 
throughout the world. As an example, a Massachusetts-based firm, 
AquaBounty Technologies, developed a transgenic salmon that could 
mature in \1/2\ the time while retaining material equivalence with its 
natural counterparts. In 1995, the firm applied to the U.S. Food and 
Drug Administration (FDA) for approval of AquAdvantage salmon. By the 
end of 2013, the fish had passed all the human health, environmental 
safety assessments required by FDA but still has not been granted 
approval. Transgenic crops face identical regulatory hurdles.
    Society must overcome strong regulatory barriers to adoption of 
transgenic crops. One of the biggest barriers to adoption is the 
controversy over the safety of transgenic crops, both in terms of human 
consumption and their effect on the environment. However, recent 
studies tend to support the safety of transgenic crops. For example, 
the European Commission funded more than 50 research projects involving 
400 researchers at the cost of =200 million to evaluate this issue and 
found that ``the use of biotechnology and of GE plants per se does not 
imply higher risks than classical breeding methods or production 
technologies'' (European Commission, 2010, p. 16). A literature review 
covering the last 10 years of transgenic crop safety and effects on 
biodiversity and human health concludes that ``the scientific research 
conducted thus far has not detected any significant hazard directly 
connected with the use of GM crops'' (Nicolia, et al., 2013, p. 2).
    Despite the growing body of scientific evidence, many countries 
around the world still follow a strict interpretation of the European 
regulatory model, which uses the precautionary principle to evaluate 
transgenic crops (as opposed to the United States, which evaluates the 
crop itself). Given the differences between U.S. and European 
regulatory systems, there is a lack of harmonization that hinders the 
adoption process. A final barrier to adoption is that farmers in 
emerging countries have little political power and cannot make the case 
for adoption, despite comprising such a large percentage of the 
population. This is not always the case, however. South Africa, for 
example, has produced transgenic crops for the past 18 years and has a 
particularly effective biosafety regulatory framework and R&D 
investment. South Africa also trained farmers and scientists and 
embarked on a substantive public awareness campaign. In addition, 
farmers groups (including both large-scale and smallholder farmers) 
were supportive of the adoption of transgenic crops (Adenle, et al., 
2013).
    Similar forward-looking strategies need to be adopted in emerging 
countries. The focus should first be on developing strategies, 
policies, and laws aimed at promoting biotechnology. Biosafety should 
be part of a broader biotechnology development strategy, not the other 
way around. Such an approach should seek to create a coordinated 
biotechnology research strategy that involves government, national 
research institutes, universities, the private sector and relevant 
civil society organizations. A broad consultative process should be 
launched that seeks to enable emerging countries to leapfrog in 
biotechnology in the same way they did in mobile technology. Failure to 
do so would be to mortgage emerging economies to the forces of 
technological stagnation, agricultural decline, and economic decay.
Conclusion
    The future of the role of transgenic crops in addressing global 
challenges will be influenced greatly by advances in science and 
technology. New developments in genomics, molecular biology, and other 
allied fields will expand technological options in ways that will 
address some of the current uncertainties. The growth in technological 
abundance will also play an important role in democratizing 
biotechnology and bringing more players into the field. This will go a 
long way in helping to spread the societal benefits of biotechnology.
    However, advances in biotechnology research can only be translated 
into societal benefits with the help of enabling policy environments. 
More important, regulatory processes need to be brought in line with 
the state of knowledge on the benefits and risks of biotechnology. The 
United States has historically played a critical role in the creation 
of the biotechnology industry by crafting founding legislation. The 
time has come for the United States to renew its leadership role by 
ensuring that regulatory processes help to spread further the benefits 
of biotechnology.
References
    Adenle, A.A., Morris, E.J., and Parayil, G., 2013. Status of 
development, regulation, and adoption of GM agriculture in Africa: View 
and positions of stakeholder groups. Food Policy, 43, pp. 159-166.
    Arjo, Gemma, et al. 2013. Plurality of Opinion, Scientific 
Discourse and Pseudoscience: An In Depth Analysis of the Seralini, et 
al. Study Claiming that Roundup<SUP>TM</SUP> Ready Corn or the 
Herbicide Roundup<SUP>TM</SUP> Cause Cancer in Rats. Transgenic 
Research, 22(2), pp. 255-67.
    Belay, M. and Nyambura, R., 2013. GM Crops Won't Help African 
Farmers. Guardian Poverty Matters blog, [blog], 24 June. Available at: 
http://www.theguardian.com/global-development/poverty-matters/2013/jun/
24/gm-crops-african-farmers [Accessed 1 November 2013].
    Brookes, G., and Barfoot, P., 2014. GM crops: global socio-economic 
and environmental impacts 1996-2012. PG Economics Ltd.
    Brookes, G. and Barfoot, P., 2013. The global income and production 
effects of genetically modified (GM) crops 1996-2011. GM Crops and 
Food: Biotechnology in Agriculture and the Food Chain 4(1), pp. 74-83.
    Butelli, Eugenio, et al. 2008. Enrichment of tomato fruit with 
health-promoting anthocyanins by expression of select transcription 
factors. Nature Biotechnology 26(11), pp. 1301-08.
    Carpenter, J.E. 2013. The socio-economic impacts of currently 
commercialised genetically engineered crops. International Journal of 
Biotechnology 12(4), pp. 249-268.
    Clayton, S., 2009. Filipino farmers welcome new rice varieties. 
IRRI. [media release] 4 June. Available at http://irri.org/
index.php?option=com_k2&view=item&id
=8151&Itemid=100588&lang=en [Accessed 1 November 2013].
    Dill, G.M., Cajacob, C.A., and Padgette, S.R., 2008. Glyphosate-
resistant crops: adoption, use and future considerations. Pest 
Management Science, 64(4), pp. 326-331.
    Edmeades, G.O., 2013. Progress in Achieving and Delivering Drought 
Tolerance in Maize--An Update. Ithaca, NY: ISAAA.
    European Commission. 2010. A Decade of EU-funded GMO Research. 
Brussels: European Commission. ftp://ftp.cordis.europa.eu/pub/fp7/kbbe/
docs/a-decade-of-eu-funded-gmo-research_en.pdf.
    Goering, L., 2012. FEATURE--'Green bullet' innovations aim to feed 
world of 9 billion. Reuters, 2 May.
    Gonsalves, D. 2004. Transgenic papaya in Hawaii and beyond. 
AgBioForum 7(1-2), pp. 36-40.
    Hammadi, Saad. 2014. Bangladeshi farmers caught in row over 
$600,000 GM aubergine trial. Guardian. June 4. http://
www.theguardian.com/environment/2014/jun/05/gm-crop-bangladesh-bt-
brinjal.
    Herrera-Estrella, L.R., 2000. Genetically Modified Crops and 
Developing Countries. Plant Physiology 124(3),pp. 923-926.
    Huang, J., Pray, C. and Rozelle, S., 2002. Enhancing the Crops to 
Feed the Poor. Nature, August 8.
    International Service for the Acquisition of Agri-biotech 
Applications (ISAAA), 2013. Global biotech/GM crop plantings increase 
100-fold from 1996; developing countries, including new adopters Sudan 
and Cuba, now dominate use of the technology. ISAAA Brief No. 44. 
[press release] 20 February. Available at http://www.isaaa.org/
resources/publications/briefs/44/pressrelease/ [Accessed 1 November 
2013].
    International Rice Research Center (IRRI), n.d. Climate change-
ready rice. [Online briefing]. Available at http://irri.org/
index.php?option=com_k2&view=item&id=
9148&lang=en [Accessed 1 November 2013].
    James, C. 2013. Executive summary. In Global Status of 
Commercialized Biotech/GM Crops: 2012, ISAAA Brief No. 44. Ithaca, 
N.Y.: ISAAA.
    James, C. 2014a. Executive summary. In Global Status of 
Commercialized Biotech/GM Crops: 2013, ISAAA Brief No. 46. Ithaca, 
N.Y.: International Service for the Acquisition of Agri-Biotech 
Applications.
    James, C. 2014b. ISAAA brief 46-2013: Slides & tables. 2013 ISAAA 
Report on Global Status of Biotech/GM Crops, February 2014, http://
www.isaaa.org/resources/publications/briefs/46/pptslides/default.asp.
    Juma, C., and Gordon, K. 2014. Leap-frogging in African 
agriculture: the case of genetically modified crops. In Foresight 
Africa. Washington, D.C.: Brookings.
    Juma, C., Conceicao, P., and Levine, S., 2014. Biotechnology and 
food security. In S. Smyth, D. Castle and P.W.B. Phillips eds. 2014. 
Handbook on Agriculture, Biotechnology and Development. Cheltenham, UK: 
Edward Elgar.
    Juma, C. 2013. Growing the nutritional revolution: a plea for niche 
crops. Nestle Foundation Report. Lausanne, Switz: Nestle Foundation, 
pp. 34-36.
    Juma, C., 2011a. The New Harvest: Agricultural Innovation in 
Africa. New York: Oxford University Press.
    Juma, C., 2011b. Preventing Hunger: Biotechnology Is Key. Nature, 
No. 479 (November 2011).
    Juma, C., Ismail Serageldin, et al. 2007. Freedom to Innovate: 
Biotechnology in Africa's Development. Report of the High-Level African 
Panel on Modern Biotechnology. Addis Ababa, Ethiopia, and Pretoria, 
South Africa: New Partnership for Africa's Development, African Union. 
http://belfercenter.ksg.harvard.edu/publication/17382/
freedom_to_innovate.html.
    Kathage, J., and Qaim, M., 2012. Economic Impacts and Impact 
Dynamics of Bt (Bacillus thuringiensis) cotton in India. Proceedings of 
the National Academy of Sciences 109(29),pp. 11652-11656.
    McHughen, Alan. 2013. GM crops and foods: what do consumers want to 
know? GM Crops and Food: Biotechnology in Agriculture and the Food 
Chain 4(3), pp. 1-11.
    National Academy of Sciences (NAS). 2010a. Strategic Planning for 
the Florida Citrus Industry: Addressing Citrus Greening. Washington, 
D.C.: NAS.
    National Academy of Sciences (NAS). 2010b. Impact of Genetically 
Engineered Crops on Farm Sustainability in the United States. 
Washington, D.C.: NAS.
    Nicolia, A., Manzo, A., Veronesi, F., and Rosellini, D., 2013. An 
Overview of the Last 10 Years of Genetically Engineered Crop Safety 
Research. Critical Reviews in Biotechnology, 34(1), pp. 77-88.
    Normile, D., 2008. Reinventing Rice to Feed the World. Science, 
July 18, pp. 330-333.
    Pray, C.E., Nagarajan, L., Huang, J., Hu, R., and Ramaswami, B., 
2011. The Impact off Bt Cotton and the Potential Impact of 
Biotechnology on Other Crops in China and India. In C.A. Carter, G. 
Moschini, and I. Sheldon, eds. 2011. Frontiers of Economics and 
Globalization, Vol. 10. London: Emerald. Ch. 4.
    Qaim, M., and Kouser, S., 2013. Genetically Modified Crops and Food 
Security. PLOS One, 8(6), pp. 1-7.
    Ray, D.K., Mueller, N.D., West, P.C., and Foley, J.A. 2013. Yield 
trends are insufficient to double global crop production by 2050. PLoS 
One 8(6), pp. 1-8.
    Ricroch A.E., Berge, J.B. and Kuntz M. 2011. Evaluation of 
Genetically Engineered Crops Using Transcriptomic, Proteomic, and 
Metabolomics Profiling Techniques. Plant Physiology, 155(4), pp. 1752-
1761.
    Redfern, S.K., Azzul, N., and Binamira, J.S. 2012. Rice in 
Southeast Asia: facing risks and vulnerabilities to respond to climate 
change. In Building resilience for adaptation to climate change in the 
agriculture sector. Rome: Food and Agriculture Organization.
    Ronald, P., n.d. New flood-tolerant rice offers relief for world's 
poorest farmers. Ronald Laboratory, University of California at Davis. 
[press release]. Available at http://indica.ucdavis.edu/news/new-flood-
tolerant-rice-offers-relief-for-worlds [Accessed 1 November 2013].
    Rotman, D. 2013. Why we will need genetically modified foods. MIT 
Technology Review. December 13. http://www.technologyreview.com/
featuredstory/522596/why-we-will-need-genetically-modified-foods/.
    Searchinger, T., et al. 2013. Creating a Sustainable Food Future. 
Washington, D.C.: World Resources Institute. Available at http://
www.worldresourcesreport.org.
    Seralini, Gilles-Eric, et al., 2012. Long Term Toxicity of a 
Roundup Herbicide and a Roundup-Tolerant Genetically Modified Maize. 
Food and Chemical Toxicology, 50 (11), pp. 4221-31.
    Sexton, S. and Zilberman, D., 2010. How Agricultural Biotechnology 
Boosts Food Supply and Accommodates Biofuels. NBER Working Paper No. 
16699. Cambridge, MA: National Bureau of Economic Research.
    Shukman, David. 2014. ``Genetically-modified purple tomatoes 
heading for shops.'' BBC. January 14. http://www.bbc.com/news/science-
environment-25885756.
    UK Council for Science and Technology. 2013. GM Science Update. 
London: Council for Science and Technology. https://www.gov.uk/
government/uploads/system/uploads/attachment_data/file/292174/cst-14-
634a-gm-science-update.pdf [Accessed 6 July 2013].
    United Nations Food and Agriculture Organization (FAO). 2009. 
Declaration of the World Summit on Food Security. Rome, Italy, 16-18 
November, ftp://ftp.fao.org/docrep/fao/Meeting/018/k6050e.pdf.
    Vitale, J.D., 2010. The Commercial Application of GMO Crops in 
Africa: Burkina Faso's Decade of Experience with Bt Cotton. AgBioForum, 
13(4), pp. 320-332.
    Wamboga, P., 2011. Vitamin A and Iron-rich bananas under trial in 
Uganda. Biovision, 16 (February) [newsletter]. Available at: http://
www.biovisioneast
africa.com/publications/Biovision-16.pdf [Accessed 1 November 2013].
    World Bank. 2008. World Development Report 2008: Agriculture for 
Development. Washington, D.C.: World Bank.
    Zilberman, D., Sexton, S.E., Marra, M., and Fernandez-Cornejo, J., 
2010. The Economic Impact of Genetically Engineered Crops. Choices, 
25(2), pp. 1-25.
Acknowledgements
    This submission is based on Juma, Calestous and Gordon, Katherine 
(Forthcoming), Transgenic Crops and Food Security, in Ricroch, A., 
Chopra, S., and Fleischer, S. eds. Plant Biotechnology--Experience and 
Future Prospects. Dordrecht, The Netherlands: Springer. Additional 
information was derived from the author forthcoming book, Innovation 
and Its Enemies: Resistance to New Technology.
Biographical Summary
    Professor Calestous Juma, a Kenyan national, is an internationally 
recognized authority on the role of science, technology, engineering 
and innovation in sustainable development. He is Professor of the 
Practice of International Development and Director of the Science, 
Technology, and Globalization Project at Harvard Kennedy School. He is 
also Faculty Chair of the Mason Fellows Program and Faculty Chair of 
the Innovation for Economic Development Executive Program.
    Professor Juma directs the School's Agricultural Innovation Policy 
in Africa Project funded by the Bill and Melinda Gates Foundation. He 
teaches graduate courses on innovation for economic development and 
resistance to new technology as well as an undergraduate seminar on 
biotechnology and sustainability. Professor Juma has been selected as a 
Dr. Martin Luther King, Jr. Visiting Professor at the Massachusetts 
Institute of Technology over the 2014-2015 academic year.
    He has conducted extensive policy research on biotechnology, having 
written his first book on the subject, The Gene Hunters: Biotechnology 
and the Scramble for Seeds (Princeton University Press and Zed Books) 
in 1989. His previous positions include: founding Executive Director of 
the African Centre for Technology Studies in Nairobi; Director of 
International Diffusion of Biotechnology Programme of the International 
Federation of Institutes of Advanced Study in Maastricht, The 
Netherlands; Executive Secretary of the UN Convention on Biological 
Diversity (where he oversaw the initiation of the negotiations that 
resulted in the adopted of the Cartagena Protocol on Biosafety); and 
Chancellor of the University of Guyana.
    Professor Juma co-chaired the African Union's High-Level Panel on 
Modern Biotechnology and the High-Level Panel on Science, Technology 
and Innovation. He has also chaired or served on committees of the U.S. 
National Academy of Sciences dealing with agricultural biotechnology. 
He is currently on the judging panels of the Queen Elizabeth Prize for 
Engineering and the Africa Prize for Engineering Innovation. He has 
served on the boards of numerous international organizations and 
universities including WWF International and is currently a trustee of 
the Aga Khan University.
    In recognition of his research, Professor Juma has been elected to 
several scientific and engineering academies including the Royal 
Society of London, the U.S. National Academy of Sciences, the World 
Academy of Sciences (TWAS), the UK Royal Academy of Engineering, the 
African Academy of Sciences. In 2006 he was honored by the Order of the 
Elder of the Burning Spear (EBS) by the President of the Republic of 
Kenya for being a respected international diplomat who has assisted 
governments to solve diplomatic problems.
    Professor Juma holds a D.Phil. in science and technology policy 
studies from the University of Sussex (UK) and has received numerous 
international awards and honorary degrees for his work on sustainable 
development in general and biotechnology in particular. He is editor of 
the peer-reviewed International Journal of Technology and Globalisation 
and the International Journal of Biotechnology. His latest book, The 
New Harvest: Agricultural Innovation in Africa, was published in 2011 
by Oxford University Press. His forthcoming book, Innovation and Its 
Enemies: Resistance to New Technology, covering case studies spanning 
the period 1490-2014, is currently under consideration by a publisher.

    Mr. Davis. Thank you, Dr. Juma.
    We will go next to Dr. Olga Bolden-Tiller, an assistant 
professor at Tuskegee University. Dr. Bolden-Tiller.

 STATEMENT OF OLGA BOLDEN-TILLER, Ph.D., ASSOCIATE PROFESSOR, 
               TUSKEGEE UNIVERSITY, TUSKEGEE, AL

    Dr. Bolden-Tiller. Thank you, and like the others, I would 
like to thank you all for the invitation.
    As an Associate Professor at Tuskegee University and the 
chair for the department of agriculture, I would like to share 
with you a little bit about why the utilization of technology 
feeding the world is an old idea.
    In his thesis entitled, Plants as Modified by Man, back in 
the late 1800s, George Washington Carver wrote ``. . . the day 
is not far distant when man . . . will be able to use the tools 
nature has placed before him from a purely scientific basis, 
free from all conjecture.'', which we are facing here today. At 
the time, the tools that Carver referred to were not biological 
tools, but the technology at his time were instead that of 
breeding, selection of varieties, budding, and grafting.
    Carver noted that: ``Ever since science overthrew the idea 
of spontaneous generation and established beyond doubt that no 
organism could have existence without a parent cell, the 
scientific world received a thunderbolt which was to be the 
means of its first great awakening.'' He also suggested in his 
thesis, ``as the message was heralded from one to another it 
aroused more careful investigation, stimulated advanced thought 
and opened up a new line of possibilities respecting the whole 
plant kingdom.'', and this has led to us where we are today 
with biotechnology, and the development of these biological 
tools.
    Technological tools and advances have been adopted in many 
fields. However, when posed for agricultural products, some 
hesitate, and this is disturbing. Even Carver noted back in his 
thesis that, ``the chemist takes original elements or 
compounds, breaks up their combination or combines them into 
various proportions to suit his purpose . . .''
    Today, this would be new medications and the development of 
other products, such as with material science engineering. This 
is not said to attack those fields but to draw parallels as 
these scientists are working within the laws of nature to 
formulate these new derivatives.
    Similarly, biotechnology allows those in life sciences who 
work with plants and animals to do is same. As the laws of 
nature themselves are not being violated, we are simply 
utilizing the laws of nature with these new biological tools in 
order to create and propagate new varieties of existing 
products.
    In his thesis, Carver suggested that: ``This was the dawn 
of a new era. [and that] . . . man was not simply to assist 
nature in producing endless varieties, but be the actual 
progenitor of new creations.'' He went on to reference several 
scientists' work that had resulted in the development of novel 
and more robust crop varieties, similar to what we talk about 
today with biotechnology, through the uses of these new 
technological tools that have resulted in increases in yields.
    When we consider the benefits of biotechnology to society, 
we can focus on any single area of agriculture and identify the 
positive impacts of technology. For instance, to address the 
issue of poor nutrition in developing countries, a derivative 
of the sweet potato produced at Tuskegee University was shown 
to have increased protein content up to 500 percent. If 
consumed by individuals in areas where protein sources are 
scarce, these individuals will have at their fingertips a food 
source that can mean the difference between malnutrition and 
survival.
    When we consider food production here in the U.S., a 
developed nation, it is clear that food production requires 
many resources and labor to manage crops. Utilizing technology 
will allow us to do this in a very sustainable manner.
    With every great awakening, scientific or otherwise, 
questions will arise. Skeptics will ensue; however, it is 
critical that we as a society look at the facts, and the facts 
are these: The incorporation of GMO crops into operations in 
developing countries result in increased farm incomes and 
reduced labor associated with agricultural practices. This 
allows for more time for education and other avenues of income. 
It is predicted that food production must double within the 
next 30 years to meet the demands of the predicted population, 
and biotechnology provides scientists with answers to these 
things in a very affordable and sustainable way.
    The science is advancing. What is not advancing adequately 
is the communication and conversations about biotechnology with 
all components of our society. Creativity and resources must be 
increased to bring all members of the U.S. family along, in 
terms of sharing in the benefits of these new technologies in 
order to improve our quality of life not only here in the 
United States but around the world.
    Thank you.
    [The prepared statement of Dr. Bolden-Tiller follows:]

 Prepared Statement of Olga Bolden-Tiller, Ph.D., Associate Professor, 
                   Tuskegee University, Tuskegee, AL
Technology Can Feed the World: An Old Idea
    In his thesis ``Plants as Modified by Man,'' George Washington 
Carver wrote over 100 years ago that, ``. . . the day is not far 
distant when man . . . will be able to use the tools nature has placed 
before him from a purely scientific basis, free from all conjecture.'' 
At the time, the tools to which Carver referred were not 
biotechnological tools, but instead tools and techniques that we find 
common today, including breeding and selection of varieties, budding 
and grafting. Carver noted that: ``Ever since science overthrew the 
idea of spontaneous generation and established beyond doubt that no 
organism could have existence without a parent cell, the scientific 
world received a thunderbolt which was to be the means of its first 
great awakening.'' He also suggested in his thesis that, ``as the 
message was heralded from one to another it aroused more careful 
investigation, stimulated advanced thought and opened up a new line of 
possibilities respecting the whole plant kingdom.'' Fast forward . . . 
the evolution of biotechnological tools have yielded another Awakening; 
one that has grown exponentially, resulting in an ever increasing 
amount of data, which has led to the subsequent development of 
additional biotechnological tools being used to understand and apply 
this new knowledge.
    Technological advances are used in many fields of science (e.g., 
medicine); however, when posed for agricultural products, some 
hesitate. Even Carver noted in his thesis that, ``the chemist takes 
original elements or compounds, breaks up their combination or combines 
them into various proportions to suit his purpose . . .'' be that 
purpose to design new medicines or other products, such as those that 
result from material science engineering. This is said not to attack 
those fields, but to draw on parallels, as these scientists are working 
within laws of nature to formulate these new derivatives,; similarly 
biotechnology allows those in the life sciences who work with plants 
and animals to do the same, as the laws of nature themselves are not 
being violated, thus the resultant products continue to propagate with 
targeted outcomes. In his thesis, Carver suggested that: ``This was the 
dawn of a new era. [and that] . . . man was not simply to assist nature 
in producing endless varieties, but be the actual progenitor of new 
creations.'' He went on to reference several scientists' works that had 
resulted in the development of novel and more robust crop varieties 
through the usage of the new technological tools of that time, such as 
selection, cross fertilizing and cultivating, with resultant increasing 
fruit and flower yields up to four-fold.
    When we consider the benefits of biotechnology to society, we can 
focus on any single area of agriculture and identify the positive 
impact(s) of the technology. For instance, to address the issue of poor 
nutrition in developing countries, a derivative of the sweetpotato, 
produced at Tuskegee University, was shown to have increased protein 
content, up to 500%. If consumed by individuals in areas where protein 
sources are scarce, these individuals will have at their fingertips a 
food source that can mean the difference between malnutrition and 
survival. When we consider food production here in the U.S., a 
developed nation, it is clear that food production requires many 
natural resources and labor to manage crops. However, varieties of 
crops that require less labor, less water and less land have resulted 
in lower food costs, making food products more affordable domestically. 
This also results in sustainable agricultural practices that are 
necessary to reduce the human footprint on the environment. Further, as 
we yield food surpluses, we also are able to export them to countries 
that may not have the ability to produce adequate food for their needs 
allowing the U.S. to play a significant role in feeding the world.
    With every ``great awakening,'' scientific or otherwise, questions 
will arise; skeptics will ensue; however, it is critical that we as a 
society look at the facts. And the facts are these: (1) the 
incorporation of GMO crops into operations in developing countries 
result in increased farm incomes and reduced labor associated with 
agricultural practices, allowing for more time for education and other 
avenues of income; (2) it is predicted that food production must double 
within the next 30 years to meet the demand of the projected 
population; (3) biotechnology provides scientists with answers that can 
result in the production of more affordable foods while sustaining the 
environment. This is not to say that technology should be haphazardly 
implored, as care must be taken and questions must be asked. Carver 
suggested that ``man is simply nature's agent . . . to assist her in 
her work, hence the more careful and scientific the man, the more 
valuable he is as an aid to nature in carrying out her plans 
methodically . . . .'' Irrespective of one's positions, it is sure that 
society must be educated about current biotechnology and forthcoming 
tools to come for the future.
    The science is advancing; what is not advancing adequately is the 
communication and conversations about biotechnology with all components 
of our society. Creativity and resources must be increased to bring all 
members of the U.S. family along in terms of sharing in the benefits of 
the new technologies to improve in their quality of life.

    Mr. Davis. Thank you, Dr. Bolden-Tiller.
    And last, I would like to go to Ms. Joanna Lidback.

  STATEMENT OF JOANNA S. LIDBACK, OWNER, THE FARM AT WHEELER 
MOUNTAIN, WESTMORE, VT; ON BEHALF OF AGRI-MARK, INC.; NATIONAL 
                       COUNCIL OF FARMER
                          COOPERATIVES

    Ms. Lidback. Mr. Chairman, Ranking Member, and other 
Members of the Subcommittee, thank you for inviting me here 
today.
    I am here on behalf of Agri-Mark Dairy Cooperative and the 
National Council of Farmer Co-ops. My husband and I have a 
small 45 cow dairy located in northeast Vermont. We also make 
extra hay to sell. We raise Jersey steers to process and sell 
beef locally and market a small amount of compost and manure. 
We have two young boys ages almost 3 and 16 months.
    My husband and I are both proud to be first generation 
dairy farmers. We believe in the science and the capability of 
biotechnology and its role in protecting the sustainability of 
our farm. Biotech crops are essential to feeding our cows and 
calves. We feed both GMO corn and soy products year round along 
with pasturing and a grass-based silage.
    GMOs are also key to our economic sustainability. For 
instance, in speaking with our dairy nutritionist earlier this 
week, he pointed out that the only non-GMO grain he could get 
us right now was organic. Our grain costs would go from $344 
per ton to $758. We use about 15 tons of grain per month. Over 
the course of the year, our costs would increase by nearly 
$75,000. I don't see how we could survive, let alone farm 
profitably with those increased feed costs.
    Beyond GMOs, we utilize other products derived from 
biotechnology across our operation, from genomic testing of our 
Jersey cattle to the medicines, vaccines, and tests we use to 
keep our animals healthy.
    In the future, we are also considering growing our own corn 
and adding alfalfa to our mix. Given our location, we would 
need a shorter-day corn variety. Without genetic engineering, 
we would not have this opportunity, and economically, it would 
not make sense.
    I personally believe that there is room for many different 
styles of farming. I also believe that biotechnology plays a 
major role in our collective ability to not only feed a growing 
global population but also to make individual improvements on 
our own farms. As a mother and as a consumer, I do not purchase 
organic or non-GMO food in the store. I generally do not 
believe in paying a premium for foods that provide no added 
nutritional, health, or environmental benefits. I feel secure 
in the steps taken to ensure the safety of the food I give my 
two growing boys.
    So you must be aware that recently my State of Vermont 
passed a mandatory GMO labeling law. However, it is important 
to note that consumers do currently have choices in the grocery 
store aisle, whether it is a certified organic label or a 
voluntary non-GMO label. As my fellow panelists can and have 
attested, the science shows that GMOs are safe and bring 
tremendous benefits to farmers, consumers, and the environment, 
but we in agriculture have failed to connect with the public, 
and this has allowed misinformation to spread.
    Related to that debate, I recently wrote to the editor of 
my local paper and posted it on my blog, farmlifelove.com. It 
was responding to an organic farmer's letter that berated 
conventional farmers and their use of GMOs. I was more nervous 
about the possible backlash from my local community than about 
anything I had ever posted on my blog. It turned out I had no 
reason to be. I found support, good questions, and many thank 
you's for speaking up. I am happy to continue to speak up to 
our right to farm in whatever we choose, which in our case 
includes biotechnology and the use of GMOs.
    It is important to share my knowledge about the 
opportunities and challenges we face as modern day farmers and 
as modern day parents. When I have one person or ten people 
reach out to me for a question or appreciating my hands on and 
practical perspective from the farm, then I have succeeded.
    We know more now than we ever have about growing food and 
caring for animals, and this helps us to achieve a level of 
productivity and sustainability that previous generations of 
farmers would envy. All of this leads to lower food costs for 
the consumer. I am proud of how far the American farmer has 
come just as I am proud of how far we have come on our own 
farm. If my sons choose to continue in farming, I want to know 
that my husband and I have provided them with a firm foundation 
to build on.
    Thank you again for the opportunity to be here today and to 
share my experience with biotechnology. I look forward to 
answering any questions you may have. Thank you.
    [The prepared statement of Ms. Lidback follows:]

  Prepared Statement of Joanna S. Lidback, Owner, The Farm at Wheeler
Mountain, Westmore, VT; on Behalf of Agri-Mark, Inc.; National Council 
                         of Farmer Cooperatives
    Chairman Scott, Ranking Member Schrader, and other Members of the 
Subcommittee, thank you for inviting me here to talk about the benefits 
of agricultural biotechnology. Today I am here on behalf of Agri-Mark 
Dairy Cooperative and the National Council of Farmer Cooperatives.
    My husband and I have a small 45 cow dairy located in northeast 
Vermont. We also make extra hay to sell, raise Jersey steers to process 
and sell beef locally, and market a small amount of composted manure. 
We rent our farm from my husband's aunt and uncle, and it consists of 
over 200 acres of tillable land, including roughly 50 acres of pasture 
where we graze our herd in temperate months. We also raise all of our 
own young stock or replacement heifers. We have two young boys, ages 
almost 3 and 16 months.
    Along with being an active partner on the farm, I have a full-time 
job with a Farm Credit Association that allows me to work remotely from 
our home, and serve as first vice president of our county Farm Bureau 
and as a dairy cattle judge for various youth and 4-H dairy shows 
across New England. I did not grow up on a farm but got involved in 
agriculture through a 4-H dairy project as a young girl in 1989. Since 
then, I have not let go of my Jersey cows. I boarded my animals on 
neighboring farms and as fate would have it met a newly-minted dairy 
farmer who I would eventually settle down with, bringing my Jerseys 
along. I have a bachelor's degree from Cornell University where I 
focused on agribusiness management and a master's in business 
administration from the F.W. Olin School of Business at Babson College.
    My husband and I are both proud to be first-generation dairy 
farmers. We are excited to be raising our sons in a farming lifestyle--
one which we think is extremely challenging at times but ultimately 
tremendously rewarding.
    We are proud to farm in the Green Mountain State but sometimes that 
fact comes with some preconceived notions. To approach our farm with 
its rolling green hills and the cows grazing quietly in the pastures--
taking note of the humble nature of our small farm--many passers-by 
have mistaken us for organic dairy farmers. However, we believe in the 
science and capability of biotechnology and its role in protecting the 
sustainability of our farm, which produces safe, affordable food for 
our fellow citizens.
    To us, sustainability means living and farming in a way that meets 
today's needs while ensuring that future generations also can meet 
their needs. Every time I look into my sons' eyes, I realize that they 
are that next generation, which makes our responsibility that much more 
tangible.
    Biotechnology crops are essential to feeding our cows and calves. 
When New England's harsh winters and late springs keep us from pasture 
feeding our livestock, we feed both corn and soy products. This gives 
us a unique perspective on the importance of GMOs. We believe that GMO 
varieties improve the efficiency and productivity. I also believe that 
GMOs lessen the environmental impact that growing can have because less 
fertilizer and pesticides are used to grow an abundant crop.
    The use of GMOs is also important to the economic sustainability of 
our farm. In speaking with our animal nutritionist in preparing for 
this testimony, he pointed out that the only non-GMO feed he could get 
us right now was organic. An organic basic 20% protein complete feed 
pellet would cost $758 per ton; the same non-organic feed is $344 per 
ton. On our small farm, we purchase around 15 to16 tons of grain per 
month. So, using 15 tons, that would more than double our grain bill, 
or in hard numbers we would spend $5,160 per month for regular feed or 
$11,370 per month on organic feed--a difference of $6,210 a month or 
$74,520 per year. I do not see how we could profitably farm in the long 
term with those increased feed costs.
    The most recent example of biotechnology that we have utilized is 
genomic testing on our cattle. This not only helps us more accurately 
identify physical traits that impact our breeding decisions for future 
offspring of the animal, but also captures any genetic issue of 
concern. For example, the Jersey Haplotype 1, recently identified in 
Jersey cattle, is associated with early embryonic loss thereby reducing 
conception rate by an average of 3.7 percent. We choose to use sires 
that have been identified as JH-1 free, particularly if we know we have 
a cow that is a carrier. In doing so, we increase our chances for a 
more efficient reproductive cycle and ultimately less stress on the 
cow.
    We also rely upon biotechnology for some of the medicines and 
vaccines we use for our cattle. Tests using Polymerase Chain Reaction 
(PCR), a DNA screening test, help us determine specific causes of 
mastitis in cows. This advancement in mastitis testing increases the 
speed and accuracy to a quantitative level in order to treat the 
specific cause of the infection. The PCR process can reduce result 
waiting time by as much as a week, providing the animal with more 
immediate infection relief using the most precise and effective 
treatment.
    In the future, we also are considering growing our own corn and 
adding alfalfa to our mix. Given our location, we will need a shorter-
day corn variety, meaning it would grow in less time than average. 
Without genetic engineering, we would not have this opportunity. 
Economically it would not make sense.
    We face a challenge brought on by what many in agriculture see as 
irrational consumer fears creating the potential for limiting our 
ability to use biotechnology in order to best utilize the resources we 
have in a sustainable way. In many cases, this has already happened as 
we saw with the controversy over use of recombinant Bovine Somatotropin 
(rBST), a technology that has no adverse effects on human health. 
Consumers, not understanding the science and being driven by fear 
stirred up by anti-agriculture activists, rejected this technology for 
no sound reason. While many said that rBST was an example of the evils 
of ``big agriculture,'' the truth is that many small dairy farms used 
rBST as a way to improve and grow their businesses, better utilizing 
existing resources and without needing more capital expenditures. Now, 
driven by the marketplace, our cooperative generally must restrict its 
members from using rBST.
    I personally believe that there is room for many different styles 
of farming. I also believe that biotechnology plays a major role in our 
collective ability to not only feed a growing global population, but to 
also make individual improvements on our own farms be it 45 cows or 
4,500 cows; a cash crop operation or an apple orchard; a multiple-
generation farm or a beginning farmer. Even though less than two 
percent of the U.S. population now lives on farms or is actively 
involved in farming, agriculture comes in all different sizes and 
shapes.
    As a mother and a consumer, I do not purchase organic or non-GMO 
food in the store. I will support my local community, however, and may 
purchase organic or non-GMO food at a farmers' market or directly at a 
farm stand. I generally do not believe in paying the higher premium for 
these foods because they provide no added nutritional or other health 
benefits. With a growing family and a growing farm business, we have 
lots of other places to spend our hard-earned money. Furthermore, I 
feel secure in the steps that have been taken to the food produced and 
available for sale in the grocery store to ensure it is safe to feed my 
family.
    The fact is that American farmers offer consumers more food 
choices, while providing the safest food supply than any time in our 
nation's history. Of course, living and working on a farm and being 
exposed to farm publications and reports, I may have a more intimate 
knowledge about the way food is grown than the typical mom. That's not 
to say that the typical consumer does not have a right to a better 
understanding of how the food they purchase is grown. The information 
is readily available. It's just a matter of getting it from reliable 
sources.
    Moreover, I feel even better knowing that food produced with GMOs 
or GMO ingredients has been done so with some sort of advantage in 
mind--whether it's environmental, health or otherwise. I certainly do 
not believe a mandatory GMO label is necessary; in fact there are more 
responsible ways to spend [my] taxpayer monies. Be that as it is, if 
consumers are to drive some sort of label requirement I believe it 
should be done in a cohesive way at the Federal level. Regardless, the 
marketplace is already figuring this out without legislative mandates 
with a non-GMO and certified organic labels.
    You must be aware that recently my state, the State of Vermont, 
passed a mandatory GMO-labeling law. As you can guess, there has been a 
fair amount of coffee shop talk about it. I am frustrated with it. I 
believe that there are better uses of the state's time, and taxpayer 
resources, than imposing regulations on a technology that has been used 
and proven safe for over 2 decades. I am also concerned about the 
impact this law will have on the cost and availability of food in 
Vermont's grocery stores.
    I might also add that our farm is not too far from the border with 
New Hampshire; we can get there in under an hour. Doubtless there will 
be consumer confusion over having one label on food in Vermont, and 
another on the exact same products in New Hampshire and the rest of the 
country. This serves no one's interests--not consumers, not farmers, 
not food producers.
    I recently posted a letter that I wrote to the editor of my local 
paper on my blog, farmlifelove.com. It was in response to an organic 
farmer's letter who said that GMOs only perpetuate a wedge between 
organic and conventional farmers. I actually agree with his sentiment. 
However, in an attempt to defend organic farming, he went on to berate 
conventional farmers, or those farmers whom I believe are open to new 
technology--whether it's naturally derived or not. The funny thing is, 
I was more nervous about sending this letter in to my local paper than 
about anything I had ever posted on my blog. I was nervous that people 
in my community, my local beef customers for example, would take issue 
with my open stance on the use and labeling of GMOs. What I found was 
completely the opposite. I found support, good questions and many thank 
you's for speaking up.
    I am happy to continue to speak up for our right to farm in the 
best way we know possible; which in our case includes biotechnology and 
the use of GMOs. I will continue to pursue an active presence on 
Facebook, Twitter and Instagram as well as more traditional 
communication routes via newspapers, church meetings or everyday 
conversation, sharing articles and ideas along with my knowledge about 
the opportunities and challenges we face as modern-day farmers as 
parents. If I have one person or ten people reach out to me for a 
question or appreciating my hands-on and practical perspective from the 
farm, then I have succeeded. And I have.
    We know more now than we have ever have about growing food, or 
caring for animals, and this helps us to achieve a level of 
productivity that previous generations of farmers would envy. I am 
proud of how far the American farmer has come, just as I am proud of 
how far we have come on our own farm.
    Thank you again for the opportunity to be here today and to share 
my experience with biotechnology.
About Agri-Mark
    Agri-Mark, with $952 million in 2013 sales, markets more than 300 
million gallons of farm fresh milk each year for more than 1,200 dairy 
farm families in New England and New York. The cooperative is 
headquartered in Methuen, Mass., has been marketing milk for dairy 
farmers since 1913, and actively represents their legislative interests 
in the Northeast and in Washington, D.C.
    Agri-Mark owns three cheese and dairy product manufacturing 
facilities in Vermont and New York State and has a butter/nonfat powder 
plant in Massachusetts. Agri-Mark has also invested in operations to 
manufacture and market valuable whey proteins globally while also 
marketing fresh fluid milk from its local farm families to the region's 
largest dairy processors.
About the National Council of Farmer Cooperatives
    Since 1929, NCFC has been the voice of America's farmer 
cooperatives. NCFC values farmer ownership and control in the 
production and distribution chain; the economic viability of farmers 
and the businesses they own; and vibrant rural communities. We have an 
extremely diverse membership, which we view as one of our sources of 
strength--our members span the country, supply nearly every 
agricultural input imaginable, provide credit and related financial 
services (including export financing), and market a wide range of 
commodities and value-added products.
    American agriculture is a modern-day success story. America's 
farmers produce the world's safest, most abundant food supply for 
consumers at prices far lower than the world average. Farmer 
cooperatives are an important part of the success of American 
agriculture. Cooperatives differ from other businesses because they are 
member-owned and are operated for the shared benefit of their members.
    Farmer cooperatives enhance competition in the agricultural 
marketplace by acting as bargaining agents for their member' products; 
providing market intelligence and pricing information; providing 
competitively priced farming supplies; and vertically integrating their 
members' production and processing. There are over 3,000 farmer 
cooperatives across the U.S., and earnings from their activities (known 
as patronage) are returned to their farmer members, helping improve 
their members' income from the marketplace.

    Mr. Davis. Thank you, Ms. Lidback. As a parent, I can 
understand your emotion.
    The chair is going to move to the question and answer 
period now, and the chair would like to remind Members that 
they will be recognized for questioning in order of seniority 
for Members who were here at the start of the hearing. After 
that, Members will be recognized in the order of arrival. I 
appreciate the Members understanding.
    I am going to start with a quick question for Dr. Just. 
While this is not intended to be a hearing about regulatory 
policy, it is important for us to understand the impact of 
government regulation on our ability to innovate. Can you talk 
about the cost of various regulatory interventions such as the 
trend of states to impose labeling mandates?
    Dr. Just. Sure. So, when we impose labeling mandates or 
things along those lines, it creates a really complex issue for 
the companies that are producing these innovations.
    First off, because they have to respond to how consumers 
are going to perceive those labels, but beyond those labels, it 
also creates this level of uncertainty as to whether the 
government will even be allowing the types of innovations they 
are going to make to be marketed once they get to the other 
end. For the risk-takers, just like everyone else, when they 
have that uncertainty, it is going to lead them on the margin 
to not invest in some of these innovations that they worry are 
going to be regulated out of usefulness in one way or another.
    So we definitely would see a dampening of innovation when 
we have that policy of uncertainty and we already are seeing 
that sort of dampening of innovation, not just big firms but 
also within the universities.
    Mr. Davis. Well, Dr. Just, do you think consumers perceive 
that government-mandated labels as somewhat of warning labels?
    Dr. Just. Absolutely. Well, it depends a little bit on what 
these labels look like. If we are talking about a front of pack 
label that says, contains genetically modified organisms, or 
something that has a whole bunch of large words that are 
difficult for them to understand, it is a warning label. It is 
something that says this is dangerous and you want to stay away 
from it. If it is in the list of ingredients right along with 
water on the back of the pack, they won't ever notice it.
    Mr. Davis. Well, I have one last question for you during 
this round, and we understand the nature of scientific research 
and appreciate the credibility that researchers bring to their 
work. Activists tend to demonize research if the data doesn't 
support their own agenda. Likewise, they attempt to discredit 
the researcher, particularly if the funding comes from a source 
that they find objectionable. Can you talk about the 
professional code of ethics you adhere to within the academic 
community?
    Dr. Just. Sure. I can speak to this in general. Each 
research university, we are forced by contract to disclose all 
of our funding sources to our university each year where a 
third party goes through and determines if there are conflicts 
of interest and in addition, every time we publish a paper, we 
have to talk about where that funding came from.
    And if it were to come out that somebody had lied or hidden 
that sort of the funding, it would be extremely embarrassing 
and the study, most likely, would be withdrawn from 
publication. I think it is clear that when we read these 
journals, that we can trust at least where that source of 
funding comes from.
    That said, in every instance I am aware, when a faculty 
member who is into research is signing a contract to do 
consulting work for a major firm, they include in there that 
they have to be able to publish everything, including those 
things that that firm may disagree with, with the firm getting 
informed about what that is ahead of time so they can have time 
to react.
    I think everybody who is an honest researcher would have to 
put that into that contract; otherwise, they just wouldn't be 
willing to sign, but in any case, published research is fairly 
trustworthy, and we can at least look at where that funding 
source came from and judge based on that funding source, 
whether we believe it is in one way biased or not.
    Mr. Davis. Thank you very much for your responses, Dr. 
Just.
    I now recognize the gentleman from Oregon, the Ranking 
Member, Mr. Schrader, who I want to let the panel know is a 
graduate of the University of Illinois, Veterinary School of 
Medicine which happens to sit in my district, so I like to tout 
that.
    Mr. Schrader. Thank you very much, Mr. Chairman. I am also 
an undergraduate of Cornell University, so I traveled around 
this great country well before my stint here in Congress.
    I will start with Dr. Juma. You indicated in your opening 
remarks that in your previous life with work you had done with 
a group of folks in agency, there was some expectations that 
genetically modified produce or crops or organisms would have 
some real serious deleterious effects environmentally, health-
wise, et cetera.
    And you have indicated, I guess, in the testimony, that 
that has not been proven to be the case, and yet it would seem 
that a lot of the rhetoric we are hearing that would be against 
hybrid or genetically modified improvements to crops still 
persist. Do you think the original prejudices still hold sway 
or has there been some new evidence to indicate there is unsafe 
or unhealthy problems with these genetically modified crops?
    Dr. Juma. Thank you very much for that question. The 
evidence does not support those claims. The balance of the 
evidence, which are the studies that have been done that 
summarize all the previous studies that exist have come to the 
conclusion that the risks associated with the genetically 
modified products are similar to those associated with 
conventional products. That is the balance of evidence.
    That is both in the United States with the studies of the 
National Academy of Sciences. Similarly, the European Union has 
conducted similar studies spending millions, up to =300 million 
over a 10 year period reviewing the evidence and came to the 
same conclusions.
    Mr. Schrader. So, if I may interrupt, Dr. Juma, so why does 
the EU still have their labeling? If they have come to the same 
conclusions, why have they not, frankly, informed their 
consumers that there is no difference?
    Dr. Juma. The EU is not a homogenous body. You have the 
commission with its scientific advice that has conducted these 
studies. You have the legislative body that is influenced very 
much by the consumer organizations that have not changed their 
position, and then you have a third component, which is a 
continuation of a report that basically misinforms the public, 
that are never challenged.
    In the case of scientific research, we disclose where our 
funding comes from. The opponents of the technology normally 
don't disclose where their funding comes from, so the standards 
that are used to guard against misinformation in the scientific 
community are not applied when it comes to those who oppose the 
technology. It has been my view that in fact those who oppose 
the technology need to be held to the same standards of ethics 
being questioned publicly in the same way as scientists get 
questioned publicly.
    Mr. Schrader. There is this call we have in this country by 
a group of folks that purport to be strong, environmentally 
oriented, and health oriented for our consumers that we should 
base our decisions on good science, and that is a concern I see 
with this unfortunate agenda trying to demonize something not 
based on the science but based on one's personal inclinations.
    Listening to you, it is obvious that while the science in 
the EU is incontrovertible about the health and safety benefits 
of genetically modified hybrid crops, that because of politics, 
people are afraid to lead and inform consumers about what is 
really going on. Certainly, people should have all the 
information they need, but hopefully it should be accurate 
information, peer reviewed information, if I listen to you in 
particular, that should be the dominant theme, not just 
someone's theory taken off the Internet or from your next door 
neighbor or some preconceived notions that have since been 
proven false.
    Next, a question to Dr. Bolden-Tiller: You indicated in 
your testimony a little bit like my opening remarks that what 
we have here is some problems with the society and 
communication aspect of the genetic modification not keeping up 
with the technology and the consumer is not really aware. Could 
you elaborate on how we in Congress or the industry or grocery 
stores or researchers, agriculturalists should get the word out 
not in a threatening or overbearing manner but one based on 
hopefully giving people good information and make good 
decisions?
    Dr. Bolden-Tiller. Indeed, it needs to be a holistic 
approach, and it doesn't need to be something that is just put 
here and there strategically, if you would. It should just be a 
part of everyday life, as many things are.
    Every day we hear about new medications and how they are 
coming to fruition and things of that nature, but we don't hear 
that development piece when related to agricultural products, 
and I think that when we look at the best approach, we need to 
look at it in that vein.
    When we talk about medication and science in general, it 
starts from kindergarten on up, and I think that we need to 
incorporate and have an understanding from our youth on up how 
it is food is produced, where does our food comes from. A lot 
of questions that people have and a lot of hesitations that 
they have really is from a lack of knowledge in regard to where 
food actually comes from.
    Mr. Schrader. Very good. Thank you.
    And I yield back, Mr. Chairman.
    Mr. Davis. The chair would like to recognize the gentleman 
from California, Mr. LaMalfa, for 5 minutes.
    Mr. LaMalfa. Thank you, Mr. Chairman.
    I appreciate the panelists traveling as they have had to 
today to be here.
    You know, I am, as you may know, I am a farmer myself in 
California. We farmed rice on our farm for our 83rd year, so 
Ms. Lidback, this is your first generation, my congratulations 
to you getting started here. It was a common joke that how do 
you make a small fortune farming, you start with a large one, 
but it is a good life and we have done well, and I appreciate 
it.
    Dr. Bolden-Tiller, when we look at the different 
technology, different things we have done over the years like, 
for example, my family would grow seed rice for other farmers' 
use the following year, and so we have improved in California 
for many years, for maybe 4,000, 4,500 weight per acre as a 
yield, so we are in the 2000s now, and we have done it without 
GMO so far this point. No California rice is GMO.
    But we have also used land leveling. We are using laser and 
now GPS guided technology to level the land within \1/8\ of an 
inch, so we are very frugal with water as we face drought and 
more and more problems with our water supply as well that 
enables us to use less materials to control weeds or other 
pests like that.
    So, we have done a lot of things outside of the GMO process 
to maximize what we have. It seems like we are at the point 
where maybe we are about tapped out on new technologies or what 
have you to extract more grain from an acre or and other crops 
as well. So, if we are going to move forward with the goals of 
increasing food production, as the Chairman and others 
mentioned, we are looking at a population of nine billion in 
not that many years on this planet. Where are we going to find 
the space to get more yield with available technologies?
    And we could in several ways. You could increase acres, 
California can be tough due to water supply and many other 
things. There are certainly avenues to do so. Increase the use 
of fertilizer, that may not be popular. What are we have going 
to do to increase and meet the goals of the world's needs?
    Dr. Bolden-Tiller. Well, I think that is what brings us 
here today. The beauty about technology is that you can target 
specifically what areas need to be adjusted, and you can do it 
in a very refined way such that you are addressing the specific 
needs. So if there is a drought issue, you can specifically 
target genes that will resist drought, and so you don't need 
more water, you don't need more land, you don't need any 
additional resources, and you can utilize the technology that 
we already have.
    I think that is why we are here today, to discuss and help 
people understand that in order for us to move forward, when we 
are running out of land, I mean, you speak of rice. I was in 
India a couple of years ago, and they are tapped out with 
regard to land, and they have one of the largest increasing 
population, and although they can go higher with buildings in 
terms of housing people, there is no more land that they can 
really tap into in order to grow more food. We have to look at 
how can we more efficiently use the land that we have and the 
other resources that we have, and biotechnology will definitely 
allow us to do this by specifically targeting the issues at 
hand.
    And the beauty of it is, is that as we understand the 
genomes of the different plants and what have you, we can 
target them specifically for regions, so if you have a water 
issue in California but you have a drought issue in Florida, 
well, you can target varieties to be developed specifically for 
those regions so that we can more efficiently utilize our 
resources broadly.
    Mr. LaMalfa. Thank you.
    Dr. Just, for example, again, when we talk about food 
supplies already being fairly tight, or about undernourishment, 
especially in third world countries, et cetera, we have heard 
with biotechnology that you can actually increase the nutrient 
value per unit of grain or whatever it is. Would you talk about 
that a little bit and what that can mean for children around 
the world that are dealing with not enough to eat. We can even 
look at our own border situation in this country right here, 
what is happening right now, what are we doing with this 
biotechnology to increase what we have per child per unit of 
food they are getting?
    Dr. Just. Sure. And actually the problem is addressed in 
several different ways by this technology.
    First, there is the ability to change the types of crops 
that are being grown in third world countries to enrich them 
with the particular proteins or other vitamins that they may be 
specifically lacking, and that is going to reduce disease, that 
is going to prevent starvation and malnutrition, and a lot of 
the other sorts of diseases that go along with that.
    But in addition, we can also broaden the types of land that 
can be used agriculturally by allowing better tolerance for 
drought or wet conditions, and even just having higher 
production here in the United States lowers the prices so that 
we end up having more freely available foods elsewhere. I can't 
imagine exactly what things would have looked like during the 
food riots from the price spikes over the last several years if 
we hadn't had biotechnology that really did make something that 
looked a lot like dust bowl in terms of climate almost 
negligible in terms of yield.
    Mr. LaMalfa. Let's not lower the prices too much, though 
okay. We have to stay in the black. We have to get this farm 
program behind us.
    Thank you. I yield back, Mr. Chairman.
    Mr. Davis. Thank you, Mr. LaMalfa.
    The chair would like to recognize the gentlelady from 
Washington, Ms. DelBene, for 5 minutes.
    Ms. DelBene. Thank you, Mr. Chairman.
    And thanks to all of you for being here. You know in my 
home State of Washington we had an initiative on the ballot in 
2012 regarding GMO labeling, Initiative 522. It did not pass, 
but it definitely started a big conversation in our state and 
raised a lot of questions on this complicated issue. People are 
confused and still looking for answers to questions, and this 
will be an ongoing conversation in our state and I am sure 
across our country and around the world.
    I started my career in biotechnology on the life sciences 
side, and I definitely agree with the comments that Mr. 
Schrader made that we need to use the best science available as 
we put together policy and put together policy that gives us 
and our communities, consumers, and producers the best results.
    And in that regard, Dr. Just, you were talking about some 
of the confusion around biotechnology and that people kind of 
lump everything together into one category as a GMO.
    Do you have ideas of how this can be better explained and 
maybe what different types of modifications there are out there 
and how we talk about them?
    Dr. Just. So, to begin with, just using long scientific 
sounding words, makes it sound like it has been grown in a test 
tube and people get scared of it, but talking about the 
individual modifications, and not even talking about them in 
terms of modifications, but, corn that allows you to reduce 
pesticide use, right, or technology in terms of the actual 
benefit. When you start talking about those benefits, people 
change their minds. They recognize this is science used in 
their interest, not for some nefarious purpose that they don't 
quite understand.
    Changing the debate to be about those specific technologies 
and the specific modifications and the reasons for those 
modifications really does change people's minds, and makes it 
much harder to argue that this is something that we need to be 
afraid of and need to make sure every consumer is aware of and 
notified of.
    Ms. DelBene. Given the breadth, how do you think you 
practically go about doing that?
    Dr. Just. I really think putting a human face on it is the 
first best option, is picking out the few technologies that 
have had some real significant health impacts such as Golden 
Rice that has been mentioned, or some of these modifications 
that are addressing diseases in Africa and other places where 
they face malnutrition. Talking just about a very few specifics 
can change the conversation.
    Ms. DelBene. Thank you.
    Dr. Juma, you were talking a little bit about the EU and 
some of the challenges there. Are there both positive and 
negatives we can learn from how other countries have addressed 
this issue that could help advise us as we move forward here in 
the United States?
    Dr. Juma. Yes. Thank you very much for that question.
    One place to watch closely is the United Kingdom, which 
joined the European Union in following the same standards that 
were hostile towards biotechnology, and as they have started to 
develop their own biotech products, they realized that the laws 
that they put in place were undermining their own industries, 
and there has been a review in the UK Parliament not only to 
change the laws but to call on the European Union to change the 
way it regulates biotechnology.
    This process of revisiting the rules in light of advances 
in science and technology is something that needs to be done 
fairly regularly, because the techniques that are in place 
right now, which have very precise methods of editing the 
genes, are making the process of genetic modification look very 
much like conventional plant breeding and even safer than 
conventional plant breeding because they are becoming more 
precise about it, and therefore, the rules need to reflect that 
reality.
    And so this continuous review of the rules, including the 
duration of FDA approval needs to be revisited in light of 
advances in technology.
    Ms. DelBene. Thank you.
    Ms. Lidback, when you talk to your customers, how do you--
do you get questions? What types of questions do you get, and 
how has that conversation gone in terms of helping folks 
understand how you farm versus how others might farm?
    Ms. Lidback. Thank you. Great question actually. I just 
went through this with one of my Jersey beef customers who was 
very skeptical of GMOs and Monsanto, in particular, and we had 
a great conversation and I just shared with her that I didn't 
think that she could believe everything she read on the 
Internet. She said, ``Oh, no, no, no, I watched a movie about 
it,'' and I said, ``Great, but let's watch more movies and 
let's keep talking about it.''
    And the tricky part is, every myth that has been put out 
there about GMOs can be debunked or disproven that so far that 
I have encountered, and when you start sharing information like 
that, as long as the other person has an open mind and is 
willing to hear you, then you are able to accomplish something.
    But you are affecting what they believe. This is their 
belief system. It is part of how they have operated or they 
have started operating, if you will and I haven't heard from 
her for a couple of weeks. I thought, oh, my gosh, maybe I lost 
her as a customer, but then, sure enough, she just called this 
past weekend, just great timing really and got another order of 
Jersey beef, and so I didn't scare her away and we opened the 
doors to discussion.
    We are going somewhere with that, and I would like to think 
that she is--she trusts me, certainly, and she trusts that I 
would make good decisions for our farm and the way we do 
things, so we just need to be better communicators about what 
is going on and what we do and what we use every day.
    Ms. DelBene. Thank you.
    Thank you, Mr. Chairman. I yield back.
    Mr. Davis. Thank you.
    Now, I would like to recognize another veterinarian, my 
colleague from the great State of Florida, Mr. Yoho, for 5 
minutes.
    Mr. Yoho. Thank you, Mr. Chairman, I appreciate it, and I 
do have a background in food animal production for the last 30 
years and equine medicine, and on inclement days I would work 
on dogs and cats in the clinic, as I am sure you did, Kurt.
    I come from an area in north central Florida. I live in a 
county called Alachua County and in a small town called the 
Town of Alachua. We have the Sid Martin Biotech Center. It is 
an incubator. It has been the Biotech Incubator of the Year in 
2013 for the research they have done, cutting edge technology.
    One of the companies, Pastoria, has taken a genetically 
modified bacteria, placed it on soybeans, and it produces 
anemicide, so it decreases the amount of herbicides or 
anemicides that we have to spread in a field, and it is cutting 
edge technology, it is going to be better for the environment, 
will increase crop yield.
    And when you look at Dr. Borlaug, back in the 1960s, which 
the research that he has done and the motto that he has that 
has been tagged with them, the man who saved a billion lives, 
and that was in the 1960s and if we look today, how many lives 
do you think have been saved by the genetically modified wheat 
that he has produced? Anybody want to guess? It is in the 
billions. But yet there is this attack on the GMOs, and the 
other Members have brought up, we in the scientific community, 
you in the ag community, and I commend you for, first, 
starting, second, educating your clients, and you three 
researchers, it is our duty to educate the public, the media in 
particular.
    Because they run with stories, and make sure that the 
research is scientifically peer reviewed articles and that we 
can prove what we are saying, we can back it up, because 
billions of lives have been saved by genetically modified 
wheat, corn, rice, other products, but yet nobody can come out 
and give us a definitive diagnosis of how many people have died 
from that. It is our duty as Members of Congress, people in ag 
communities, and researchers to educate the people out there.
    And so my question is, could anyone give their--one of the 
other things that has come up, too, for example, in the 1990s, 
it took the U.S. Government about 6 months on average to bring 
a new ag biotech product to market. As of 2013, the average was 
30 months with some products taking nearly 45 months.
    And so these researchers, these companies are going through 
just a mountain of regulations and more testing and more 
testing, and I understand we want to be safe with the product 
that we bring to market, but it is getting to the point where 
it is crippling our market, it is crippling the innovation in 
America, and companies are leaving here; whereas in Europe, 
they can get these done a lot quicker, which is, you think they 
would be more restrictive than we are. Can you give your 
thoughts on why this is happening? We will start with you, Dr. 
Just.
    Dr. Just. So I can't speak to specifics about why it is 
happening, but I do believe there is this growing worry about 
biotechnology in general, and it is leading to this additional 
scrutiny.
    Mr. Yoho. Who is leading that charge? Is it the scientific 
community, or is it the outside groups?
    Dr. Just. No, it is outside groups. It is activists that 
are outside of the academic community that are misinformed and 
don't understand the science that is behind it.
    Mr. Yoho. Dr. Juma, what is your opinion?
    Dr. Juma. I think there is a certain degree of hesitation 
on the part of political leadership not to do something, to 
take decisions that they think their voters might not support. 
And as the voices against biotech increases, leadership becomes 
less and less willing to take tough decisions. The case of 
transgenic salmon in this country is a very good example of 
that.
    Mr. Yoho. You hit on a very important part. Because if 
politicians aren't going to back the research, that is why it 
is so important on a Committee like this, the Agriculture 
Committee, especially the biotech, that we have the information 
and we go out and talk it with a authoritative voice and 
educate our Members so that they can carry that back. And I 
appreciate you bringing that up.
    Another question I have, can the U.S. consumers, with all 
the hunger and health problems we currently face, afford an 
unpredictable regulatory system, driven by anti-modern ag 
products in the public interest groups? I mean, we just can't 
afford that, can we? I mean, would you agree? Anybody want to 
comment on that?
    Ms. Lidback. I would agree. I would definitely agree. I 
think that what we are hearing today is that there are a lot of 
great things out there. For example, peanuts. What if we had a 
peanut that people could consume that had peanut allergy? I 
mean, when you have a kid who has a peanut allergy, it affects 
all the rest of the kids that they go to school with or they 
are in daycare with. You can't bring any peanut products or 
whatever the case may be.
    Again, it comes to communicating what the benefits are 
specifically and getting the message out there. So far, we have 
done a poor job of that. And so that is why we are here today, 
to get the word out, get the message out.
    Mr. Yoho. I am out of time, but I want to thank you for 
coming up here. That is what we are here for, to educate the 
public. Thank you, Mr. Chairman.
    Mr. Davis. Thank you, Mr. Yoho.
    We are going to do another round of questions. And I am 
going to recognize the Ranking Member, Mr. Schrader, for 5 
minutes.
    Mr. Schrader. Interesting topic. And again, the gist of the 
panel's remarks are we need more education.
    So, in that spirit, I guess, Dr. Juma, what is the current 
regulatory status of Golden Bananas and Golden Rice? How much 
of this is getting into consumers' hands?
    Dr. Juma. In the Philippines, with the Golden Rice, there 
is a law in place that would allow the country to approve it, 
but there is fierce opposition, which is not just domestic but 
internationally, that is putting pressure on the Government of 
the Philippines not to move on their approval.
    In Uganda, where there is a serious problem with the 
bananas--it is a staple for Uganda, a low content of Vitamin 
A--Ugandan scientists have developed a variety that is rich in 
Vitamin A, Golden Bananas. They have a different problem there. 
The activists won't let the parliament approve a law that would 
allow the government to determine whether to release the 
product or not. So we have two situations where there is a law, 
opponents won't allow the government to use that law. Then you 
have another case where there is no law, and the government has 
been trying for 10 years to put in place a law, and every time 
it comes to parliament, opponents, both international and local 
opponents, come and kill the law. So, in both cases, it is 
basically opposition that is depriving the public of the 
benefits of biotechnology.
    Mr. Schrader. Thank you. Yes. So misinformation and we 
politicians conspiring to misinform and, frankly, harm 
consumers and people that really are in desperate need of 
increased nutrition, at the end of the day. Dr. Just, what are 
the ill effects of GMO-produced products? What health hazards 
are we facing now because stuff has been GMO made?
    Dr. Just. I am aware of no specific health harms from GMO 
products. You know, it is certainly possible to produce 
genetically modified foods that would be harmful, but it is 
possible to produce any sort of thing that might be harmful. 
You know, it is a bit like complaining about a tool, like a 
wrench, rather than the actual--the actual food itself. It is a 
just a tool to create that modification. We could obtain the 
same modifications by using traditional means and crossing our 
fingers and hoping it happens. It is just a much more efficient 
means. But it doesn't present any specific health harm.
    Mr. Schrader. Thank you.
    Dr. Juma, would you agree with that?
    Dr. Juma. I would agree with that. And I would go further 
and say that, in many cases, not using biotechnology carries 
more risks than using it. If you take the environmental area, 
for example, if we didn't use biotechnology techniques, we 
would need additional land, which is close to twice the size of 
Texas, to grow the food that we grow today. So if we took away 
biotechnology, it would have greater risks. So my claim would 
be that not using it carries more risks than using it.
    Mr. Schrader. Following up on that, I remember--you have a 
little gray hair, sort of like me--that back in the 1960s, 
1970s, there were a lot of predictions that we were going to 
have world hunger because there is not enough arable land to 
feed the world. Why didn't that come true? Is that just bad 
science, or what happened between then and now that changed 
that paradigm?
    Dr. Juma. I think that most predictions underestimated two 
things: first, is the potential advances in technology to 
address those problems, and second, human creativity.
    Mr. Schrader. Both of which are sort of on trial these days 
it would appear. I appreciate that.
    Dr. Bolden-Tiller, would you agree? What are the bad ill 
effects that you have seen or studied when you read the 
scientific journals with GMO crops?
    Dr. Bolden-Tiller. Well, looking in the literature as well 
as working with scientists, we have not seen any as a matter of 
fact. And what we have found is that individuals who, once they 
understand the science behind it, they are very receptive to 
the use of GMO products.
    Mr. Schrader. Dr. Just, for whatever reason, it doesn't 
seem like there is a very valid reason, but people have their 
own opinions, I get that, and this is a great country, if you 
don't like GMO produce or a crop or seed, isn't it true you can 
just buy--you can go organic, develop organic? Isn't organic a 
different way to go if that is your concern?
    Dr. Just. Certainly. Organics are available, and they are 
GMO-free. So people can always choose to go a different 
direction.
    Mr. Schrader. So why do we need a whole other labeling deal 
or whatever if we already have organic?
    Dr. Just. I don't know specifically that we do. I really 
worry that the labeling does more harm than good, that it leads 
too many people away from it, and it diminishes the market for 
GMOs that are the solution to a lot of the problems we face.
    Mr. Schrader. I will just make a final comment, Mr. 
Chairman. You have been very indulgent here. Besides the 
misinformation that this whole discussion would lead to, I am 
very worried about how it divides the agricultural community. 
As a farmer, as a veterinarian; frankly, as people who live and 
work the land provide the safest health, food, and fiber in the 
world--Ms. Lidback is one of them--we are a small group. We are 
less than three percent of the population in this great 
country. But we feed not only ourselves but most of the world. 
And there is a variety of ways to go about that. Organic is a 
very valid way to go, and I am a proud organic farmer. I think 
that is great. There are people that are sensitive to different 
chemicals, not to gene changes but to other things that we see 
out there, and it serves a legitimate purpose. People want to 
know different things. Organic works great.
    And as an organic producer back when it wasn't popular to 
be organic, I remember being demonized by my friends in 
conventional agriculture on occasion. And I just hope we sit 
back and remember and say, ``Well, I am not going to do the 
same thing now to my friends in conventional agriculture 
because they serve a purpose.'' And the opportunity to feed 
people in different countries, different parts of our great 
country, where the weather is not so conducive to growth of 
certain beneficial crops with high nutrition value, that we 
don't start demonizing one another. We have one agriculture, in 
my opinion, in this great country. And we ought to stick 
together to provide an intelligent message about the benefits.
    Dr. Bolden-Tiller is right on target when she says we need 
to communicate more with the consumer all along the way about 
the great advances, the positive advances. Frankly, if you get 
that stuff out early, we can get our pushback earlier, 
hopefully allay concerns or address real genuine concerns along 
the production cycle. Frankly, as a man who made my living off 
the land, I bear some responsibility for that. But I assure 
you, Dr. Juma, I am not going to be one of those politicians 
that sits back and is afraid to hopefully bring the message to 
the folks in the Fifth Congressional District of Oregon that 
are very interested in the GM debate. But I hope to have a more 
informed debate. I guess we will find the outcome on November 
2.
    Thank you very much, Mr. Chairman.
    Mr. Davis. Thank you.
    Let the record show that the GMO debate is not the General 
Motors debate today.
    I would like to recognize for another round of questions my 
colleague from Florida, Mr. Yoho, for 5 minutes.
    Mr. Yoho. Thank you, Mr. Chairman.
    And again, the GMOs in my area, north central Florida, we 
have a kind of sandy loam type of soil. And when I graduated 
from vet school in 1983, we produced roughly 50 to 75 bushels 
per acre of corn. Today, we are pushing 300 bushels to an acre. 
And that is through the genetic modification of drought 
resistance, pest resistance. And I don't think anybody can 
argue with that. And of course, that drives down the feed price 
to cattle, as you brought up. You know, if we didn't have that, 
our price for our livestock feed would be way up. And then it 
would just change the whole dynamics.
    Dr. Just, I wanted to ask you, because you have done a lot 
of research on marketing and consumer sentiment on this, what 
has your research shown that would be the increased costs of 
say a sack of wheat versus a variety--with an old variety of 
wheat? Do you have any idea on that?
    Dr. Just. So the increased cost?
    Mr. Yoho. Yes, like if you had the GMO wheat that is 
producing 70 percent more yield versus an old one, would it be 
70 percent difference?
    Dr. Just. So there are a lot of different ways this could 
impact the market. But if we were to talk about just 
eliminating GMOs altogether, the best estimates that are out 
there--we have something along the lines of a ten percent 
increase in commodity prices across the board. But that is 
different depending upon which commodities. Where it has been 
much more prevalent, it would be much larger than that.
    Mr. Yoho. I agree. I think it would be huge. What has your 
research shown consumers, what will they tolerate, or when it 
comes to labeling GMO, what is the biggest drawback? Is it the 
ignorance of what the product is just from a lack of education?
    Dr. Just. So it is ignorance of the product, and it is a 
general skepticism of anything they eat that is too processed 
or treated in some way that they don't quite understand. You 
get the same reactions that you do if you have them read the 
ingredient list with all the words that they don't quite 
understand. It is just a general stigma and a general pushback.
    And frankly, it is because they don't understand the 
alternatives that they are facing. They don't recognize that a 
lot of those contain things that are much more dangerous but 
aren't genetically modified.
    Mr. Yoho. Yes. We need to remind them that yogurt is a 
genetically engineered modified product. I think beer is, too, 
right?
    Did you say that there was an agreeable cost savings that 
people would consume GMOs? What was that cost?
    Dr. Just. So there have been several different studies done 
along these lines. And for most consumers, it is something 
around 25 percent of a discount that they start to switch and 
be willing to take on GMOs when they have that label.
    Mr. Yoho. I can just see them, I don't like this product, 
it is bad for you, but man, if I can save 25 percent, we are 
going to consume it. We had a veterinarian that taught us 
animal health. And if a cow died, people would call him up. And 
the farmer would always say, ``My cow died; can I feed it to my 
wife and kids?'' And he said, ``Well, yes, you can, but they 
are going to die.'' And he says, ``Okay.''
    Anyway. I got off the subject. What trade barriers have you 
seen with other countries with our GMOs?
    Dr. Just. So GMOs are sort of a soft trade barrier, where 
you have required labeling in places and other sorts of 
barriers like that. And what it does is, it is cutting off 
markets where it is not possible to grow traditional crops at 
volume, right? So in places where we do have traditionally poor 
agriculture and don't have high yields, they can't access 
Europe unless they use the traditional crops that don't have 
the high yields. It is a trade barrier, but it is put in place 
in a way that is acceptable internationally.
    Mr. Yoho. I appreciate your time.
    Mr. Chairman, thank you for indulging me.
    Mr. Davis. Thankfully, the gentleman's time has expired.
    Thank you for not letting me come to your veterinary 
practice.
    But it is a privilege to have each and every one of you 
here. And as today's temporary Chairman, I get the opportunity 
to end this hearing. But before so, I wanted everybody to have 
a chance to ask their questions before I got to a few more.
    And I would tell you I appreciate you bringing up another 
product that could be considered genetically modified. And you 
mentioned beer. And my staff over there is going, what is he 
going to say right now? But I did some research.
    It wasn't peer reviewed, Dr. Just.
    After three Fourth of July parades, I stopped by a store in 
Decatur, Illinois, and I was getting a six pack of that adult 
beverage product that Mr. Yoho mentioned. And the young man who 
was helping me mentioned to me that he had read a story that 
the product I was buying was bad for you because it was 
carcinogenic because it included GMO corn in that beer. And I 
ironically had read the same story that has been going around 
the Internet about different types of beer that are 
carcinogenic. And I wanted to remind the young man that he 
actually had number one and number two mixed up. Number one was 
carcinogenic because of a so-called caramel coloring product. 
Number two was supposed to be carcinogenic because it could 
include genetically modified corn.
    And this goes back to the labeling issue we talked about 
earlier, Dr. Just, that even without labeling, what is out 
there, what is being placed out to the American consumer about 
GMO products gives the warning to individuals like this young 
man and others like me, who don't have an agricultural 
background, who could take this information and make judgments 
that are just not based on science and fact?
    And that is the purpose of this hearing today. Even with 
that limited research I was able to see--I was able to see it 
in action. And that is what we are trying to address with this 
hearing.
    In Decatur, Illinois, I am proud that one of my 
constituents is Howard Buffett. And I would urge each and every 
one of you to read his book called, 40 Chances. It is one of 
the last books that I have read. And I didn't read it just 
because he was my constituent. But it is a great view of how 
agriculture impacts the rest of the world and how global 
agriculture is. I come from central Illinois. We have some of 
the priciest but most fertile farm land in America. And I often 
say that we feed the world, and it is underappreciated. In our 
agricultural sectors, we have seen from each and every one and 
heard from each and every one of you today, is being impacted 
by this zealousness to go after genetically modified seeds and 
genetically modified foods that include these products, when 
they are perfectly safe and they are helping to feed the world.
    Now, Howard, my friend, he believes that biotech is a part 
of the solution to solving world hunger. I can remember sitting 
in Decatur, Illinois, at Millikin University, 25, 26, 27 years 
ago, I don't remember which years it was there, but I got to 
listen to Dr. Paul Ehrlich tell us that in the next 20 years, 
the world was going to have a starvation problem. I would like 
to think Dr. Ehrlich was--the starvation problem still exists, 
but not nearly to the extent because of what he considered the 
population explosion, not nearly to the extent that he led us 
to believe because of human interaction, development in 
biotechnology. And I would urge you to continue to work in that 
direction.
    But let me get back to Mr. Buffett. He was in Winnipeg for 
the World Congress on Conservation Agriculture just a few 
months ago and even hinted that debating the merit of GMO crops 
is actually a step in the wrong direction. I want to read you a 
quote from the Manitoba Co-operator. Howard said, ``I think we 
just have to be inclusive and understand that there is a place 
for everything, and that if we can get those things in the 
appropriate places at the appropriate use, then we are going to 
have a lot of wins.'' He said that adding that he believes even 
debating the merit of genetically modified crops is a step in 
the wrong direction. ``If all we are going to do is spend our 
time debating what is good and bad, and alienate everybody, and 
pick sides, we are going to lose a lot more than we are going 
to win.''
    And I have a question. I want to start--each of you feel 
free to answer this question, but I am going to start with Ms. 
Lidback. In your view, how do you think we can achieve 
consensus on this issue so that we can focus on results and 
feeding hungry people? Or as my constituent Howard Buffett puts 
it, how can we achieve more wins?
    Ms. Lidback. Great question. I think you have heard it a 
lot today. I think we need to do a better job of communicating 
the specific benefits that we get from biotechnology. There are 
a lot more benefits that we have from other types of 
biotechnology on our farm that I didn't quite go into detail 
today. About how it affects the animal welfare of the cows that 
we have, and how we keep them healthy, and we are able to keep 
them healthy or we are able to treat them right away when they 
get sick. In so communicating those efforts that we have made 
on my blog or in my social media outlets, I think that I get--
we get more believers, we get people who trust me, who trust 
what we are doing on our farm and then, maybe when they are 
looking at other products or other areas of biotech, aren't 
quite so scared. Because a big issue is people are afraid of 
what they don't know.
    And so to get the information out there is key to achieving 
more wins. I mean, people talk about they have a right to know, 
and that is why they need a label, a mandatory label on GMO 
products. Information is already out there. They don't need to 
wait for a label. They can go and do their own research and 
find it. That is what I would say. Because at the end of the 
day, like Mr. Schrader said, we are all farmers, we are all 
doing the best that we can in the best way that we know how do 
it. And it is all about producing a quality product, nutritious 
product for our consumers.
    Mr. Davis. Dr. Bolden-Tiller.
    Dr. Bolden-Tiller. Yes, I would just like to chime in, 
actually, I indicated that it is communication. A very perfect 
example, just about a week or so ago, we had some individuals 
from our community. Tuskegee University is a big name, but it 
is in a very small town. And because of that, the individuals 
in the community are our neighbors. And by ``us,'' I mean the 
people at the university are our neighbors, our friends, 
members of our churches. And so they felt very comfortable 
going to our dean and saying, Dr. Hill, who is accompanying me 
today, we would like to have a frank conversation with you 
about genetically modified organisms and what have you.
    And so some of us got with them, and there was just a frank 
conversation. And it was very clear to us after that 
conversation that they were open to understanding, but they had 
not had or utilized us as a resource previously. And lot of 
their misconceptions had nothing to do with the technology 
itself but some of the names of companies or what have you, as 
you indicated for your consumer, associated with the science. 
So it was not even the science itself that they had any issue 
with. But once we were able to talk to them about the science 
and even invite them onto our campus to take part in a workshop 
so that they can actually do some hands-on work in 
biotechnology, they are very open to it, very appreciative of 
it. I think that is really what we need to do more of.
    Mr. Davis. Thank you, Dr. Bolden-Tiller.
    Anybody else, you are welcome, or we can move on to another 
one.
    Dr. Juma. Yes. I think that a better understanding, a 
better science-based understanding of the risks and benefits of 
the products could help us to move towards a regime of 
coexistence so that the two products could coexist. We have had 
this story in this country with margarine, where it was 60 
years of laws, state laws restricting, enforcing labeling on 
margarine. I don't think this country wants to go the route 
that it went with the war between butter and margarine. I think 
today we have coexistence between the two products. I think 
that the lessons from that case could inform how we approach 
the GMO debate.
    Mr. Davis. Thank you.
    I am going to go ahead and move onto the next question. And 
I want to initially start with Dr. Bolden-Tiller. How in your 
view does the U.S. compete with other countries when it comes 
to biotech research and development of biotech products?
    Dr. Bolden-Tiller. Can you repeat?
    Mr. Davis. Yes. In your view, how does the U.S. compete 
with other countries when it comes to our biotech research and 
development of biotech products? And just in a global 
competitiveness type of request?
    Dr. Bolden-Tiller. I think that we compete very well. I 
think that we can look at the United States as being at the 
forefront just because of our government and our scientists and 
our academic freedom, we have had the opportunity to move 
forward on some things. When I look at our interaction with 
other countries, we do quite a bit of work in West Africa, and 
to work with scientists in those areas who don't have the 
freedom just to explore some of these technologies, and we have 
that. I think that that has put us in the forefront.
    Mr. Davis. Anybody else?
    Dr. Juma. There are 28 countries that grow genetically 
modified foods. I think those countries provide a very 
interesting basis for a trade arrangement in GM products. They 
can trade among themselves. I think that is what is going to 
generate pressure on countries that don't want to participate 
in the GM revolution to actually become players. If they see 
that it is 26 that are providing leadership, which is the 
largest section of the global community anyway, I think there 
is a basis there for new trade arrangements.
    Mr. Davis. So 26 countries?
    Dr. Juma. Twenty-eight countries.
    Mr. Davis. Twenty-eight countries are using GMO products 
that they are exporting?
    Dr. Juma. On a commercial basis. And the numbers are going 
up. And most of the new players that are coming along are from 
developing countries. It puts the United States in a position 
to really play a new role in a new field of international 
trade.
    Mr. Davis. Could be a job creator here in this country.
    Dr. Juma. Absolutely.
    Mr. Davis. That actually leads me to my next question.
    Dr. Just. Do you mind if I make a comment on this?
    Mr. Davis. Yes, because you just ruined my transition. No, 
go ahead, Dr. Just. I am kidding.
    Dr. Just. This is an important point I hope. We are well 
placed to be the leader. And we do have a comparative 
advantage, given our university research structure and the 
freedoms that we enjoy.
    At the same time, I had a conversation just 2 days ago with 
a colleague who is a--someone who works in biotech and 
developing new technologies. And they lament that a lot of the 
research is disappearing at the universities because of the 
public pushback. And it is pushing a lot of that research back 
into the corporations, into the Monsantos. And that means we 
are not making a lot of the innovations we should otherwise. So 
this pushback is not just a problem in terms of production but 
also the innovation.
    Mr. Davis. That is a great point. And thank you for 
interrupting me.
    Actually, I do want to get back, because I had another 
question. And this is my last question, unless you guys say 
something that allows me to ask more.
    But my good friend Mr. Buffett actually has done a great 
deal of work in the African continent.
    And you mentioned developing countries, Dr. Juma, and you 
talk about 28 countries exporting GMO foods, GMO seed-produced 
foods. What can we do to address the hunger in countries, 
especially in the African continent that Howard is focused on, 
what can we do in addressing those hunger needs with 
genetically modified seeds for the new users of those products 
in developing nations that could eventually become exporters of 
agricultural products, rather than just consumers? So can you 
tell me how biotech is going to be used as a valued tool to 
help developing nations not only feed their own population but 
also to possibly grow economically?
    Dr. Juma. Yes. Thank you.
    The main challenge, particularly for African countries, is 
the weak capacity in universities to conduct biotech research. 
And this creates a very unique opportunity for collaboration 
between U.S. and African universities. That collaboration could 
then lead to investment in research in additional products, 
additional agricultural crops. There are hundreds of indigenous 
African crops that are not currently consumed widely that could 
become part of the global food basket. But conducting that 
research, particularly with the use of biotechnology tools, 
would require a closer collaboration between African and 
American universities.
    Mr. Davis. Thank you.
    Dr. Just, I will go ahead and go to you next.
    Dr. Just. So certainly we need to have that sort of 
collaboration with the U.S. university system. As well, 
developing varieties specifically for the production conditions 
within Africa, within other developing countries is a huge boon 
to these potential trading partners. The big problem they face 
right now is that there are so many economies that are 
relatively closed or closed to GMOs. And it makes it very 
difficult for them to take advantage of these innovations in 
the way that could alleviate poverty there. There is a 
colleague of mine at Yale who essentially says Europe has blood 
on its hands for the way they have treated GMOs and the impact 
that it has had specifically on Africa.
    Mr. Davis. Thank you.
    Dr. Bolden-Tiller, Ms. Lidback, feel free to offer any 
comments.
    Dr. Bolden-Tiller. Yes, at Tuskegee University, we have a 
number of our professors are who are from some of these African 
countries, and so they do have inroads to working with some of 
the scientists there. And one of the things that we are very 
proud of is our collaborations with them and the scientists 
there, as well as some of the legislatures, it is just to help 
give them an opportunity to understand the sciences. And what 
we have found, in particularly biotechnology, and what we have 
found is that instead of us having to change their mind, 
instead of them depending solely on the naysayers from Europe 
and where have you, instead, they are making their own 
decisions about their food choices.
    And in Ghana, for instance, they were able to pass some of 
the biosafety regulations allowing them to do field studies 
with some genetically modified organisms.
    Mr. Davis. Thank you.
    Ms. Lidback?
    Ms. Lidback. Mr. Chairman, I was just sitting here thinking 
about your original question. I hope you don't mind if I add a 
little bit more to it.
    Mr. Davis. Go ahead.
    Ms. Lidback. You asked how we could better communicate the 
benefits and sort of get past debating about whether the 
science is good or not, whatever the case may be. I was just 
thinking, Dr. Just brought it up earlier, if we have a label 
that specifically conveys what benefit of whatever GMO product 
or tool was used in that food product, in the ingredient list, 
convey the benefit of it, of a voluntary label, that would be a 
way to convey the information.
    I am worried about a piecemeal approach. I mentioned I am 
from the State of Vermont. We just had a mandatory labeling law 
passed in our state. And I am worried that it is going to 
affect--consumers in Vermont won't be able to get as many 
products available to them. Small businesses in Vermont, food-
related businesses in Vermont won't be able to have the freedom 
that other companies have outside of the State of Vermont that 
don't have to have tiers and labels. So if there is a voluntary 
effort by a company to show the benefits of whatever the GM 
product or the GM process was that was used in the making of 
that food product, I think that might actually be a positive 
way to approach and to get past the debate and to not be afraid 
of what--and not to perpetuate fear of how the food was made 
and processed.
    Mr. Davis. Thank you. Thank you very much.
    And Dr. Juma?
    Dr. Juma. Can I say something that won't provoke you to ask 
more questions?
    Mr. Davis. Sure. I reserve the right to go ahead and ask. 
So, yes, feel free.
    Dr. Juma. I just wanted to add in terms of the U.S. 
competitiveness----
    Mr. Davis. Yes.
    Dr. Juma.--that so far, we have been focused almost 
entirely on crops. There is a real potential in expanding 
biotechnology to livestock that would expand really the 
capacity of this country to engage and compete internationally 
a lot more than it is doing at the moment.
    Mr. Davis. A very good point. And I will save you from 
another question, too.
    I do want to actually refer back to something you said 
earlier, sir, a couple things. And you talked about the weak 
research and development at institutions of higher learning in 
the African continent as helping to hold back some of the 
opportunity that those developing nations could have in 
developing more products and developing their economy. I would 
also argue that it is also due to some political instability 
and weak governments in these countries to actually set up the 
institutions that are necessary.
    And you said something earlier that I know Ranking Member 
Schrader mentioned. It was about political courage and 
political will. Now, we are sitting here today at this hearing 
to talk about the benefits of GMO products. And I would not be 
surprised if Ranking Member Schrader and I have already been 
vilified in social media for even having the audacity to talk 
about the benefits of biotechnology to our agricultural sector. 
So, hopefully, just by having this hearing, we can at least 
demonstrate to each of you, who give us a very well-rounded, 
scientific approach to biotechnology, hopefully, we 
demonstrated in a small way that we do have the political 
courage to stand up and ensure that we are putting the facts of 
science over hysteria.
    Now, the gentleman has waived his closing remarks. And I 
will use those as my closing remarks, and thank each and every 
one of you again for being here today and being a part of this 
hearing. I learned a lot, I know, and I hope that the rest of 
my colleagues and those in the room have done the same. And I 
hope none of you minded our humor, because sometimes in 
Washington, we have to have a little sense of humor. And thanks 
for participating.
    Under the rules of the Committee, the record of today's 
hearing will remain open for 10 calendar days to receive 
additional material and supplementary written responses from 
the witnesses to any question posed by a Member. This hearing 
of the Subcommittee on Horticulture, Research, Biotechnology, 
and Foreign Agriculture is adjourned.
    [Whereupon, at 11:40 a.m., the Subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
 Submitted Material by Hon. Austin Scott, a Representative in Congress 
                              from Georgia


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Submitted Statement by Hon. Austin Scott, a Representative in Congress 
    from Georgia; on Behalf of Alvin Jones, Principal, Jones Laffin 
                             Company, Inc.
    Mr. Chairman and distinguished Members of this Subcommittee, I 
appreciate the opportunity to submit for the record the following 
statement regarding today's hearing, ``To consider the societal 
benefits of biotechnology.''
    As principal of the Jones Laffin Company, Inc., of Albany, Georgia, 
I want to provide an overview of the public-private partnerships Jones 
Laffin has had with the U.S. Department of Agriculture's (USDA) 
Agricultural Research Service (ARS) and, in particular, how we feel the 
joint features present significant potential societal benefits of 
biotechnology.
    In 2012, Jones Laffin entered into a Cooperative Research and 
Development Agreement (CRADA) with ARS in order to ultimately 
commercialize technologies to effectively dispose of dangerous 
environmental hazards such as acid whey. As you know, disposing of acid 
whey is threatening to derail the growing Greek yogurt industry and its 
benefits not only to our economy but our national health. As the Greek 
yogurt market has skyrocketed to become one of the biggest success 
stories in food over the past several years, we remain committed to 
working with ARS to develop solutions designed to offer the dairy 
industry an opportunity to turn a disposal expense into a new revenue 
enhancement.
    Greek yogurt production creates the byproduct acid whey, which is a 
natural byproduct of not only Greek yogurt but cream cheese and cottage 
cheese production as well. Five parts milk generally yields one part 
cheese or yogurt and four parts acid whey. The byproduct can pollute 
streams and is difficult to dispose of, even in landfills. Our ongoing 
research and progress with ARS has led to a process using specialized 
equipment that not only neutralizes acid whey but also captures 
valuable protein and lactose remaining in the byproduct. The new 
process is an all-natural method of separating the component 
ingredients of raw acid whey (water, lactose and protein) and turning 
them into valuable commodities which can be sold as ingredients in the 
food industry. Test results strongly indicate the technology will have 
a crucial environmental impact and contribute to economic benefits 
resulting from costs saving and additional potential revenue streams 
for the dairy industry.
    In addition to the acid-whey technology, Jones Laffin and ARS have 
been developing a revolutionary technology which continues to yield 
positive results for food manufacturers seeking to appease consumers' 
insatiable appetite for more nutritional and healthier protein 
products. Scientists have taken whey protein and texturized it, 
allowing formulators to increase nutrition and improve flavor and 
overall eating quality. Again, early test results hold particular 
promise in providing additional societal benefits.
    Perhaps most encouraging are results showing the texturized whey 
protein (TWP) performs extremely well in recipes and formulas at 
significantly higher percentages than customary whey protein--without 
altering the taste, texture or other natural characteristics in end 
products such as pasta, cereal, soups, beverages and baked goods. The 
hope is by utilizing TWP, manufacturers won't have to change product 
designs and formulations simply to increase nutrition; they should be 
able to more successfully create new uses for protein.
    The TWP applications, interestingly enough, have also been used to 
increase protein levels in yogurt without increasing sugar amounts. As 
further testing ensues, the TWP technology is expected to enable the 
conversion of regular yogurt into Greek-yogurt-like protein values 
while incurring less expense. Based on preliminary reviews, the yogurt 
example entails a more rapid production process that actually achieves 
similar protein levels as those in Greek yogurt, absent increased sugar 
intake.
    In conclusion, I want to thank the Members of this Subcommittee for 
supporting USDA's ongoing efforts to promote American agriculture by 
conducing cutting-edge research designed to foster public-private 
partnerships and develop solutions to the myriad of challenges facing 
our country's agriculture and dairy industries. Via the cooperative 
projects in which we've engaged with ARS, we believe the technologies 
being developed should lead to increased production of environmentally 
conscious, healthier commodities to address consumers' growing demand 
for products containing more protein.

                                  [all]

</pre></body></html>
